<html>
<title> - S. 235, THE ALASKA NATIVE TRIBAL HEALTH CONSORTIUM LAND TRANSFER ACT; S. 920, THE FOND DU LAC BAND OF LAKE SUPERIOR CHIPPEWA NON-INTERCOURSE ACT OF 2013; AND S. 1352, THE NATIVE AMERICAN HOUSING ASSISTANCE AND SELF-DETERMINATION REAUTHORIZATION ACT OF 2013</title>
<body><pre>[Senate Hearing 113-126]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-126
 
 S. 235, THE ALASKA NATIVE TRIBAL HEALTH CONSORTIUM LAND TRANSFER ACT; 
S. 920, THE FOND DU LAC BAND OF LAKE SUPERIOR CHIPPEWA NON-INTERCOURSE 
 ACT OF 2013; AND S. 1352, THE NATIVE AMERICAN HOUSING ASSISTANCE AND 
                          SELF-DETERMINATION 
                      REAUTHORIZATION ACT OF 2013 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2013

                               __________

         Printed for the use of the Committee on Indian Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

85-897 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                      0COMMITTEE ON INDIAN AFFAIRS

                 MARIA CANTWELL, Washington, Chairwoman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 31, 2013....................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Cantwell....................................     1
Statement of Senator Franken.....................................    20
Statement of Senator Johnson.....................................    27
Statement of Senator Tester......................................    23

                               Witnesses

Harris, Sarah, Chief of Staff to Assistant Secretary--Indian 
  Affairs, U.S. Department of the Interior.......................     9
    Prepared statement...........................................    10
Henriquez, Hon. Sandra, Assistant Secretary For Public And Indian 
  Housing, U.S. Department of Housing and Urban Development......    11
    Prepared statement...........................................    13
Keel, Hon. Jefferson, President, National Congress Of American 
  Indians........................................................    14
    Prepared statement...........................................    16
Mcswain, Hon. Robert, Deputy Director for Management Operations, 
  Indian Health Service, U.S. Department of Health and Human 
  Services.......................................................     3
    Prepared statement...........................................     4
Teuber, Andy, Chairman/President, Alaska Native Tribal Health 
  Consortium.....................................................     5
    Prepared statement...........................................     7

                                Appendix

Brend, Toni Ann, Chairperson, Coquille Indian Housing Authority; 
  Vice Chairperson, Coquille Tribal Council, prepared statement..    40
Bryan, Annette, Executive Director, Puyallup Nation Housing 
  Authority, prepared statement..................................    34
Causley, Cheryl A., Executive Director, Bay Mills Indian Housing 
  Authority; Chairwoman, National American Indian Housing Council 
  (NAIHC), prepared statement....................................    52
Diver, Hon. Karen R., Chairwoman, Fond du Lac Band of Lake 
  Superior Chippewa, prepared statement..........................    30
Durglo, Hon. Joe, Chairman, Confederated Salish and Kootenai 
  Tribes of the Flathead Indian Nation, prepared statement.......    44
Gore, Carol, President/CEO, Cook Inlet Housing Authority, 
  prepared statement.............................................    32
Masagatani, Jobie M. K., Chairman, Hawaiian Homes Commission, 
  prepared statement.............................................    54
Schatz, Hon. Brian, U.S. Senator from Hawaii, prepared statement.    29
Thom, Hon. Michael, Chairman, Karuk Tribe Housing Authority; 
  Vice-Chairman, Karuk Tribe, prepared statement.................    36


 S. 235, THE ALASKA NATIVE TRIBAL HEALTH CONSORTIUM LAND TRANSFER ACT; 
                 S. 920, THE FOND DU LAC BAND OF LAKE 
SUPERIOR CHIPPEWA NON-INTERCOURSE ACT OF 2013; AND S. 1352, THE NATIVE 
AMERICAN HOUSING ASSISTANCE AND SELF-DETERMINATION REAUTHORIZATION ACT 
                                OF 2013

                              ----------                              


                        WEDNESDAY, JULY 31, 2013


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Maria Cantwell, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    The Chairwoman. The Senate Indian Affairs Committee will 
come to order.
    This afternoon we are having a hearing on S. 235, the 
Alaska Native Tribal Health Consortium Land Transfer Act; S. 
920, the Fond du Lac Band of Lake Superior Chippewa Non-
Intercourse Act of 2013, and S. 1352, the Native American 
Housing Assistance and Self-Determination Reauthorization Act 
of 2013.
    I want to thank the witnesses for being here, and my 
colleague, the Vice Chairman of the Committee. I am sorry we 
are late. A vote on the Floor kept us delayed.
    As I said, this afternoon, we are having a hearing on 
several bills. These bills address the issues at the core of 
tribal self-governance and self-determination: land and 
infrastructure. In order for tribes to thrive as governments, 
they need an adequate land base to provide for their members. 
Lands are vital for the basic tribal infrastructure needs such 
as educational facilities, elder care centers, natural resource 
protection and economic development projects.
    The two lands bills before us today will allow the impacted 
tribes to make the best use of their lands to improve the lives 
of members and their surrounding communities. S. 235, the 
Alaska Native Tribal Health Consortium Land Transfer Act, would 
transfer a parcel of land from the Department of Health and 
Human Services to the Alaska Native Tribal Health Consortium. 
With the transfer to the Alaska Native Tribal Health 
Consortium, they will be able to construct a 170-room 
residential facility to accommodate patients from all over 
Alaska to receive treatment at the medical center.
    S. 920, the Fond du Lac Band legislation, will provide 
Congressional authority for land exchange between the Fond du 
Lac and Carlton County. This exchange will allow the Band to 
acquire lands held by the county within the reservation and the 
county will acquire lands owned by the Band within the county. 
The Band will be able to consolidate its land holdings on its 
reservation to provide housing for members as well as other 
activities like gathering and hunting, and the county will be 
able to use its acquired lands to enhance the county's forestry 
resources.
    This bill is a good example of how effectively governments 
can work together in ways that are beneficial to the entire 
community.
    The final bill we will consider is S. 1352 reauthorization 
of the Native American Housing Assistance and Self-
Determination Act. Senator Barrasso and I just introduced 
legislation with the support of many of our colleagues, 
Senators Johnson, Tester, Udall, Franken, Begich, Heitkamp, 
Schatz and Hirono. So a lot of people on the Committee. I want 
to thank all of them for their support.
    In April, we had an oversight hearing on Indian housing 
issues. We heard a lot about the crisis that still exists in 
Indian Country. Currently there are 200,000 housing units 
needed immediately in Indian Country, and 25 percent of 
American Indian housing units have ``severe housing needs''. 
This means that those homes lack basic plumbing or kitchen 
facilities or other important infrastructure.
    So the Native American Housing Assistance and Self-
Determination Act recognizes that tribal governments are in the 
best position to allocate their funds for their members and the 
Committee's legislation would authorize the program for five 
years and streamline the processes among Federal agencies, 
provide support for Native American veterans and remove 
barriers for tribes to construct more sustainable housing.
    So I think this bipartisan bill sends a clear message. We 
need to act now on successful housing programs for Indian 
Country. The bill is critical to providing adequate resources, 
attracting economic development to reservations and providing 
homes for teachers and public safety officers. So I look 
forward to hearing all the witnesses today.
    Now I would like to turn it over to the Vice Chairman, 
Senator Barrasso, for his opening statement.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Madam Chairwoman, for holding 
this hearing on these bills. All of these bills are very 
important.
    Specifically, S. 1352, the reauthorization of the Native 
American Housing Assistance and Self-Determination Act, is 
important to all Indian tribes. Your leadership, Chairwoman 
Cantwell, on this reauthorization, is welcome and I am happy to 
co-sponsor this measure with you.
    I want to note that this bill would further streamline the 
bureaucracy experienced in Indian housing development. In 
addition, it would also provide mechanisms to increase funding 
resources or leverage for more housing development. With the 
tight budget conditions and limited private investment in 
Indian Country, these changes should help the important work of 
tribally-designated housing entities.
    I look forward to working with my colleagues on advancing 
this bill, so that the Indian housing act is reauthorized 
again. I also want to thank the witnesses for their testimony 
today.
    Thank you again, Madam Chairwoman.
    The Chairwoman. Thank you, Senator Barrasso.
    We are going to start with our witnesses. We will start 
with you, Mr. McSwain. Then we will just go down the line. 
Thank you for being here.

     STATEMENT OF HON. ROBERT McSWAIN, DEPUTY DIRECTOR FOR 
 MANAGEMENT OPERATIONS, INDIAN HEALTH SERVICE, U.S. DEPARTMENT 
                  OF HEALTH AND HUMAN SERVICES

    Mr. McSwain. Madam Chairwoman and members of the Committee, 
good afternoon. I am Robert McSwain, Deputy Director for 
Management Operations for the Indian Health Service.
    I am pleased to have the opportunity to testify on S. 235, 
the Alaska Native Health Consortium Land Transfer Act, 
providing for conveyance of Indian Health Service real property 
located in Anchorage, Alaska, to ANTHC.
    S. 235 would provide for the conveyance of certain property 
located in Anchorage, Alaska from the Federal Government to 
ANTHC in Anchorage, Alaska. It should be pointed out that ANTHC 
actually assumed responsibility for provision of the IHS-funded 
Health Service in 1999 under the authority of the Indian Self-
Determination and Education Assistance Act.
    The Federal property described in S. 235 is used in 
connection with health and related programs in Anchorage. In 
fact, just recently, we transferred the land to ANTHC, on June 
25th, under a quitclaim deed. And it is recorded in the City of 
Anchorage.
    Previously, on April 26th, IHS had executed a memorandum of 
agreement with ANTHC which sets forth the terms and conditions 
under which easements will be established, so IHS could 
transfer the ownership of the property to ANTHC by quitclaim 
deed. S. 235 provides for conveyance of the Anchorage property 
from the United States to ANTHC. It proposes to replace the 
quitclaim deed, transfer it by authorizing the use of a 
warranty deed. The easements, which will be established under 
the MOA, must be intact if a warranty deed is fully executed.
    IHS supports the bill because it views the proposed 
transfer as furthering the special partnership that exists with 
American Indian and Alaska Native governments, and moreover, it 
is in keeping with the Presidential Memorandum on 
Administrative Flexibility as it pertains to tribal 
governments.
    We have a couple of points on the bill that I would like to 
focus on. IHS believes the language relating to the following 
issues needs to be clarified or revised. Conveyance language 
should be revised to allow no less than 90 days to convey the 
property to ANTHC. Secondly, legal description language, now 
that we have done the quitclaim deed, we actually have a slight 
change in that, and that is where we have indicated in our 
testimony that it is Tract A-3A, Tudor Centre, according to 
plat no. 2013-43, slight change then which adds in the bill, 
but it is accurate in accordance with the current surveys that 
we have done and actually moving the 2.79 acres over.
    We look forward to working with you, Madam Chairwoman, on 
measures to improve the health of the Alaska Native population. 
This concludes my testimony and I appreciate the opportunity to 
appear before you to discuss this important bill. I would be 
happy to answer any questions.
    [The prepared statement of Mr. McSwain follows:]

    Prepared Statement of Hon. Robert Mcswain, Deputy Director for 
Management Operations, Indian Health Service, U.S. Department of Health 
                           and Human Services
    Madam Chairwoman and Members of the Committee:
    Good afternoon. I am Robert McSwain, Deputy Director for Management 
Operations of the Indian Health Service (IHS). I am pleased to have the 
opportunity to testify on S. 235, the ``Alaska Native Tribal Health 
Consortium (ANTHC) Land Transfer Act'', providing for the conveyance of 
Indian Health Service (IHS) real property located in Anchorage, Alaska 
to ANTHC.
    The Indian Health Service (IHS) plays a unique role in the 
Department of Health and Human Services (HHS) because it is a health 
care system that was established to meet the federal trust 
responsibility to provide health care to American Indians and Alaska 
Natives (AI/ANs). The mission of the IHS, in partnership with American 
Indian and Alaska Native people, is to raise the physical, mental, 
social, and spiritual health of AI/ANs to the highest level. The IHS 
provides comprehensive health service delivery to approximately 2.2 
million AI/ANs through 28 Hospitals, 61 health centers, 33 health 
stations and 3 school health centers. Tribes also provide healthcare 
access through an additional 16 hospitals, 235 health centers, 164 
Alaska Village Clinics, 75 health stations and 6 school health centers. 
In support of the IHS mission, the IHS and Tribes provide access to 
functional, well maintained and accredited health care facilities and 
staff housing.
    S. 235 would provide for the conveyance of certain property located 
in Anchorage, Alaska from the Federal Government to the Alaska Native 
Tribal Health Consortium (ANTHC) in Anchorage, Alaska. ANTHC assumed 
responsibility for the provision of the IHS-funded health care services 
in 1999 under the authority of the Indian Self-Determination and 
Education Assistance Act (ISDEAA). The federal property described in S. 
235, which is used in connection with health and related programs in 
Anchorage, Alaska by the IHS, was transferred to ANTHC by quitclaim 
deed and recorded in the Anchorage Recording District on June 25, 2013.
    On April 26, 2013, IHS executed a Memorandum of Agreement (MOA) 
with ANTHC, which sets forth terms and conditions under which easements 
will be established so IHS could transfer ownership of the Anchorage 
property to ANTHC by quitclaim deed. S. 235 provides for the conveyance 
of the Anchorage property from the United States to the ANTHC and 
proposes to replace the quitclaim deed transfer by authorizing the use 
of a warranty deed. The easements, which will be established under the 
MOA, must remain intact if a warranty deed is executed.
    The IHS supports this bill because it views the proposed transfer 
as furthering the special partnership that exists with American Indian 
and Alaska Native tribal governments, and, moreover, is in keeping with 
the Presidential Memorandum on Administrative Flexibility as it 
pertains to tribal governments. It is important to emphasize that, as a 
normal practice, IHS does not transfer properties via the warranty deed 
mechanism. However, we will support an exception in this case because 
of the ANTHC initiative to expand access to its health care system for 
IHS beneficiaries from throughout Alaska. This proposal will give the 
ANTHC flexibility to leverage additional resources because ownership of 
the property under a warranty deed will give them unencumbered 
ownership of the property described in S. 235.
    IHS believes the language, relating to the following issues needs 
to be clarified and/or revised:

  <bullet> Conveyance language should be revised to allow no less than 
        90 days to convey the property to ANTHC;

  <bullet> Environmental Liability language needs to be clarified so 
        the ANTHC is responsible for any environmental contamination 
        which may have occurred since its control of the property began 
        in 1999, or for contamination that may occur or arise ``as of, 
        or after, the date of the 2013 conveyance''; and,

  <bullet> ''Reversionary Clause'' language should be clarified to 
        apply in case of retrocession by ANTHC from their ISDEAA 
        compact.

  <bullet> Legal Description language needs to be changed to describe 
        accurately the property to be conveyed: ``Tract A-3A, Tudor 
        Centre, according to plat no. 2013-43, recorded on June 20, 
        2013 in Anchorage recording district, Alaska, containing 2.79 
        acres more or less''.

    We believe that reasons to use this mechanism in future cases are 
limited. IHS anticipates no problems with the quitclaim deed currently 
being processed by IHS for ANTHC. Traditionally, Alaska Tribal Health 
Organizations (THOs) have preferred to leave the title of their 
facilities previously operated by the IHS with the Federal Government, 
and the majority of the health care facilities used by the Tribes in 
the other 35 states are located on tribally owned lands. This warranty 
deed transfer would be the fourth of its kind in Alaska. IHS recently 
issued three warranty deeds authorized by Congress to transfer parcels 
of land to the Maniilaq Association previously transferred through a 
quitclaim deed. On other numerous occasions properties were transferred 
to Tribes or Tribal Organizations through quitclaim deeds.
    We think retrocession is unlikely. We can count only four 
retrocessions since the enactment of ISDEAA in 1975. Three were only 
small program components which have been re-assumed by the Tribes. None 
of these retrocessions was in the Alaska Area.
    We look forward to working with you, Madam Chairwoman, on measures 
to improve the health of the Alaska Native population. Madam 
Chairwoman, this concludes my testimony. I appreciate the opportunity 
to appear before you to discuss S. 235. I will be happy to answer any 
questions the Committee may have. Thank you.

    The Chairwoman. Thank you very much. Thank you for being 
here.
    Mr. Teuber, thank you very much. We look forward to your 
testimony.

  STATEMENT OF ANDY TEUBER, CHAIRMAN/PRESIDENT, ALASKA NATIVE 
                    TRIBAL HEALTH CONSORTIUM

    Mr. Teuber. Thank you. Good afternoon, Chairwoman Cantwell 
and Ranking Member Barrasso, other members of the Committee.
    My name is Andy Teuber. I am the Chairman and President of 
the Alaska Native Tribal Health Consortium. Thank you for the 
opportunity today to testify in support of S. 235, the Alaska 
Native Tribal Health Consortium Land Transfer Act.
    ANTHC, as it is known, is a statewide tribal health 
organization that serves all 229 federally-recognized tribes 
and over 143,000 Alaska Natives across the State of Alaska. We 
are the largest, most comprehensive tribal health organization 
in the United States. Through a self-governance compact, ANTHC 
provides health services that were previously provided by the 
Indian Health Service.
    ANTHC jointly operates the Alaska Native Medical Center 
with South Central Foundation. Located in Anchorage, this 150-
bed hospital is the statewide tertiary care center for over 
143,000 Alaska Natives and American Indians who reside in the 
State. Each year we provide over 287,000 outpatient visits, 
54,000 emergency department visits, 8,000 inpatient admissions, 
1,500 infant deliveries and over 10,000 annual surgical 
procedures. We believe ANMC is one of the finest facilities in 
the Indian health system.
    As a level 2 trauma center, ANMC is the highest certified 
trauma hospital in Alaska. This recognition certifies our 
ability to provide quality care to people who suffer traumatic 
injuries 24 hours a day, 365 days a year. Today, Alaska Natives 
are healthier and living longer as a result of the care 
provided at ANMC and by the tribal health system.
    However, there is much more work needing to be done. One of 
our main challenges is meeting the increased demand for health 
services of an ever-increasing population of Alaska Natives. 
The population we serve has increased by over 34 percent since 
ANMC first opened, increasing from 105,000 in 1997 to well over 
143,000 today. To meet current and future needs, ANTHC has 
developed a comprehensive campus facilities master plan. We 
have identified an immediate need for increased patient housing 
to increase the capacity at ANMC.
    As ANMC serves as the referral hospital for tertiary cases 
for the entire Alaska Tribal Health System, many of our 
patients we serve are from villages many hundreds of miles away 
and outside of Anchorage. We have included Exhibit A that 
illustrates the span of our referral pattern. For these 
individuals, the biggest challenge in accessing specialty 
services at ANMC is the lack of housing and an affordable place 
to stay while in Anchorage. ANTHC has undertaken extraordinary 
efforts to accommodate traveling patients as best we can with 
limited resources. However, the cost of providing housing to 
patients and medically necessary escorts under the current 
system has risen dramatically and will be unsustainable in the 
future.
    In 1999 the cost of providing housing for patients and 
escorts was $600,000. This cost has increased eight-fold today, 
to $4.8 million. Because we receive only minimal reimbursements 
for providing patient housing, we expect an estimated net loss 
of $4.5 million for in fiscal year 2012 for providing this 
patient housing. This cost is borne solely by ANTHC from ANMC 
operating funds. Our current capacity for patient residential 
housing is 52 rooms at our Quyana House, managed by ANMC, and 
110 hotel rooms that ANMC contracts for at another additional 
expense.
    In order to improve patient care and contain costs for 
providing housing to patients and their escorts who receive 
care at ANMC, we need to construct this 170-room residential 
and outpatient guest facility. Estimated construction cost of 
the patient housing facility is around $40 million. After 
completion, the housing facility will save ANTHC an estimated 
$2 million per year. The patient housing facility will be built 
on the closest open land to ANMC, which is located directly 
across the road, north of ANMC. The housing facility will be 
connected to ANMC via a sky bridge, maximizing patient care and 
minimizing transportation expenses.
    On June 25th, the Indian Health Service provided a 
quitclaim deed to ANTHC for the 2.79 acre parcel where the 
Patient Housing Facility will be built. The housing facility 
will be built using non-Federal funds. Currently there are no 
buildings on the 2.79 acre parcel ANTHC is seeking to obtain 
warranty deed title to, through S. 235, and the land is being 
used for parking currently. To address parking issues that may 
arise from displacement, ANTHC is also in the design phase of 
constructing a parking garage on the 2.79 acres.
    If enacted, this important legislation would allow ANTHC to 
successfully continue to fulfill the Federal Government's trust 
responsibility by providing for the current and future health 
care needs of Alaska Natives and American Indians.
    Thank you for this opportunity to testify today. I am happy 
to answer any questions.
    [The prepared statement of Mr. Teuber follows:]

 Prepared Statement of Andy Teuber, Chairman/President, Alaska Native 
                        Tribal Health Consortium
    Good afternoon Chairwoman Cantwell, Ranking Member Barrasso, 
Senator Murkowski, Senator Begich and other members of the Committee. 
My name is Andy Teuber. I am the Chairman and President of the Alaska 
Native Tribal Health Consortium (ANTHC). Thank you for the opportunity 
to testify in support of S. 235-the Alaska Native Tribal Health 
Consortium Land Transfer Act.
    ANTHC is a statewide tribal health organization that serves all 229 
federally-recognized tribes and over 143,000 Alaska Natives and 
American Indians in Alaska. We are the largest, most comprehensive 
tribal health organization in the United States. Through a Self-
Governance Compact, ANTHC provides health services that were previously 
provided by the Indian Health Service.
    ANTHC jointly operates the Alaska Native Medical Center (ANMC) with 
Southcentral Foundation. Located in Anchorage, this 150-bed hospital is 
the statewide tertiary care center for over 143,000 Alaska Natives and 
American Indians who live in Alaska. Annually, we provide over:

  <bullet> 287,000 outpatient visits;
  <bullet> 54,000 emergency department visits;
  <bullet> 8,000 inpatient admissions;
  <bullet> 1,500 infant deliveries; and
  <bullet> 10,000 surgical procedures.

    We believe ANMC is one of the finest facilities in the Indian 
health system. As a Level II Trauma Center, ANMC is the highest 
certified trauma hospital in Alaska. This recognition certifies our 
ability to provide quality care to people who suffer traumatic injuries 
24 hours a day, 365 days a year. Today, Alaska Natives are healthier 
and living longer as a result of the care provided at ANMC and by the 
Alaska Tribal Health System.
    However, there is much more work to be done. One of our main 
challenges is meeting the increased demand for health services of an 
ever-increasing population of Alaska Natives. The population we serve 
has increased by over 34 percent since ANMC first opened, increasing 
from about 105,000 in 1997 to over 143,000 today. To meet current and 
future needs ANTHC has developed a comprehensive campus facilities 
master plan. We have identified an immediate need for increased patient 
housing to increase capacity at ANMC.
    As ANMC serves as the referral hospital for tertiary cases for the 
entire Alaska Tribal Health System, many of the patients we serve are 
from villages many hundreds of miles outside of Anchorage (see Exhibit 
A, attached). For these individuals, the biggest challenge in accessing 
specialty services at ANMC is the lack of housing and an affordable 
place to stay while in Anchorage. ANTHC has undertaken extraordinary 
efforts to accommodate traveling patients as best we can with limited 
resources. However, the cost of providing housing to patients and 
medically necessary escorts under the current system has risen 
dramatically and will be unsustainable in the future.
    In 1999 the cost of providing housing for patients and escorts was 
$600,000. This cost has increased 8-fold, to $4.8 million, in FY 2012. 
Because we receive only minimal reimbursements for providing patient 
housing, we expect an estimated net loss of $4.5 million for in FY 2012 
for providing patient housing. This cost is borne solely by ANTHC from 
ANMC operating funds. Our current capacity for patient residential 
housing is 52 rooms at our Quyana House, managed by ANMC, and 110 hotel 
rooms that ANMC contracts for at considerable expense.
    In order to improve patient care and contain costs for providing 
housing to patients (and their escorts) who receive care at ANMC, we 
need to construct a 170-room residential and outpatient guest room 
facility. Estimated construction cost of the Patient Housing Facility 
is $40 million currently. After completion, the housing facility will 
save ANTHC an estimated $2 million per year.
    The Patient Housing Facility will be built on the closest open land 
to ANMC, which is located directly across the road, north of ANMC. The 
housing facility will be connected to ANMC via a sky bridge, maximizing 
patient care and minimizing transportation expenses.
    On June 21, 2013 the Indian Health Service provided a quitclaim 
deed to ANTHC for the 2.79 acre parcel where the Patient Housing 
Facility will be built (see Exhibit B, attached). The housing facility 
will be built using non-federal funds. Currently there are no buildings 
on the 2.79 acre parcel ANTHC is seeking to obtain warranty deed title 
to, through S. 235, and the land is being used for parking. To address 
parking issues that may arise from displacement, ANTHC is also in the 
design phase of constructing a parking garage on the 2.79 acre parcel.
    While the quitclaim deed allows ANTHC to begin construction of the 
Patient Housing Facility, it is still necessary that ANTHC hold an 
unencumbered title to the land on which the Patient Housing Facility 
will be located on. Having an unencumbered title will allow ANTHC to 
use the Patient Housing Facility as collateral to obtain the financing 
necessary to achieve our long-term expansion needs. This can only be 
accomplished through federal legislation, therefore the need for S. 
235.
    We respectfully request favorable consideration of S. 235, which, 
if passed, would greatly improve the accessibility of much needed 
health services for Alaska Natives and American Indians throughout 
Alaska, whose health care status, despite years of progress, continues 
to lag far behind other populations in Alaska and the rest of the 
United States.
    If enacted this important legislation would allow ANTHC to 
successfully continue to fulfill the Federal Government's trust 
responsibility by providing for the current and future health care 
needs of Alaska Natives and American Indians throughout Alaska.
    Attachments

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The Chairwoman. Thank you very much.
    Ms. Harris?

         STATEMENT OF SARAH HARRIS, CHIEF OF STAFF TO 
           ASSISTANT SECRETARY--INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Ms. Harris. Good afternoon, Chairwoman Cantwell, Vice 
Chairman Barrasso, members of the Committee.
    My name is Sarah Harris, and I am a member of the Mohegan 
Tribe from Connecticut. I am here today in my capacity as the 
Chief of Staff to Assistant Secretary for Indian Affairs Kevin 
Washburn.
    Thank you for the opportunity to provide the Department's 
statement on S. 920, the Fond du Lac Band of Lake Superior 
Chippewa Non-Intercourse Act of 2013. The Department supports 
S. 920. The Department is aware the Fond du Lac Band of Lake 
Superior Chippewa and Carlton County in Minnesota want to 
finalize an agreement for an exchange of land. We are 
supportive of their efforts to work together to resolve these 
important land issues within their communities.
    Under the agreement, the Band would exchange 1,451 acres of 
off-reservation land that it owns in fee simple for 3,200 acres 
of on-reservation land that is administered by Carlton County. 
It is our understanding that the two parcels are of equivalent 
value. It is important to note that this proposed land exchange 
does not involve any lands held in trust by the Department or 
the United States for the benefit of the band.
    Both the band and the county have requested this 
legislation because they believe that the land exchange is 
prohibited unless authorized by Congress. Both cite Federal Law 
25 U.S.C. Section 177, which prohibits any purchase, grant, 
lease or other conveyance of lands or any title or claim 
thereto from any Indian nation or tribe of Indians unless 
authorized by Congress. Therefore, the State of Minnesota is of 
the opinion that it cannot give final approval to the land 
exchange without an act of Congress authorizing the Band to 
convey its title to this land.
    S. 920 is not limited to this specific land exchange. 
Instead, the bill provides more broad authority for the Band to 
lease, sell, convey, warrant or transfer all or any portion of 
any interest in its real property not held in trust by the 
United States for the benefit of the Band. Thus, S. 920 would 
allow the Band to do with its lands what it deems fit, as long 
as that land is not held in trust by the United States. 
Therefore, the Department supports S. 920.
    Thank you for the opportunity to appear before you here 
today. I am happy to answer any questions you may have.
    [The prepared statement of Ms. Harris follows:]

    Prepared Statement of Sarah Harris, Chief of Staff to Assistant 
       Secretary--Indian Affairs, U.S. Department of the Interior
    Good afternoon, Chairwoman Cantwell, Vice Chairman Barrasso, and 
members of the Committee. Thank you for the opportunity to provide a 
statement on behalf of the Department of the Interior (Department) on 
S. 920, the Fond du Lac Band of Lake Superior Chippewa Non-Intercourse 
Act of 2013. The Department supports S. 920.
    The Department is aware that the Fond du Lac Band of Lake Superior 
Chippewa (Band) and Carlton County (County) in Minnesota propose to 
implement an agreement that they have for an exchange of land. The land 
exchange involves 1,451 acres of land located outside the Fond du Lac 
Reservation, which are owned in fee simple by the Band. These lands 
would be exchanged for tax-forfeited lands of equivalent value 
(approximately 3,200 acres) that are administered by Carlton County, 
the title to which is held by the State of Minnesota, and which are 
located within the Fond du Lac Reservation. This proposed land exchange 
does not involve any lands held in trust by the United States for the 
benefit of the Band.
    However, both the Band and the County are of the opinion that this 
land exchange is prohibited unless authorized by Congress. The Band and 
County cite federal law, 25 U.S.C.  177, which prohibits any 
``purchase, grant, lease, or other conveyance of lands, or of any title 
or claim thereto, from any Indian nation or tribe of Indians'' unless 
authorized by Congress, and therefore the State of Minnesota is of the 
opinion that they cannot give final approval to the land exchange 
without an Act of Congress authorizing the Band to convey its title to 
this land.
    S. 920 is not limited to this specific land exchange, but instead 
is more broad and would allow the Fond du Lac Band of Lake Superior 
Chippewa in the State of Minnesota (Band) to lease, sell, convey, 
warrant, or transfer all or any portion of the interest in any real 
property not held in trust status by the United States for the benefit 
of the Band. The legislation also clearly states that S. 920 does not 
authorize the Band to lease, sell, convey, warrant, or otherwise 
transfer all or any portion of any interest in any real property that 
is held in trust by the United States for the benefit of the Band. 
Thus, S. 920 would allow the Band to do with those lands not held in 
trust status, likely all lands held in fee simple by the Band, as the 
Band deems fit. Therefore the Department supports S. 920.
    Madam Chairwoman and members of the Committee, thank you for the 
opportunity to appear before you today. I am happy to answer any 
questions you may have.

    The Chairwoman. Thank you. Ms. Henriquez, thank you for 
being here.

         STATEMENT OF HON. SANDRA HENRIQUEZ, ASSISTANT 
         SECRETARY FOR PUBLIC AND INDIAN HOUSING, U.S. 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Ms. Henriquez. Good afternoon, Chairwoman Cantwell, Vice 
Chairman Barrasso and members of the Committee. Thank you for 
inviting me to testify today on S. 1352, a bill to reauthorize 
the Native American Housing Assistance and Self-Determination 
Act of 1996, otherwise known as NAHASDA.
    My name is Sandra Henriquez, and I am the Assistant 
Secretary for Public and Indian Housing at HUD. PIH is 
responsible for the management, operation and oversight of 
HUD's American Indian, Alaska Native and Native Hawaiian 
housing programs. HUD is very pleased that the reauthorization 
of NAHASDA is a priority for this Committee. We strongly 
support reauthorization of NAHASDA, because this law is 
essential to creating sustainable tribal communities.
    NAHASDA provides a successful approach guided by the 
principles of self-determination, consultation and self-
governance, to delivering decent and affordable Indian housing 
and developing tribal economies. The Indian Housing Block 
Grant, the largest program under NAHASDA, has infused almost 
$10 billion in to Indian housing and community development 
since its inception about 16 years ago. Over the life of the 
program, IHBG recipients have built or acquired more than 
35,000 affordable housing units in Indian Country and 
substantially rehabbed more than 66,000. Recipients currently 
maintain almost 51,000 HUD units that were funded before 
NAHASDA was enacted.
    HUD is currently analyzing and reviewing S. 1352, and would 
like the opportunity to work with the Committee and staff to 
provide recommendations on some of the existing provisions as 
well as offer insight on ways to further improve NAHASDA. We 
are particularly pleased to see an effort on the part of the 
Committee bill to address the needs of homeless veterans on 
reservations.
    For the past year, HUD's Office of Native American Programs 
has collaborated with the Veterans Administration in an effort 
to find ways that existing Federal programs can be used to 
reduce the number of homeless vets living on reservations. We 
are happy to assist with further development of this concept, 
and explore ways in which HUD VASH can work in Indian Country 
without creating a separate program or subjecting tribal 
recipients to burdensome administrative requirements.
    HUD also understands the desire of this Committee and IHBG 
recipients to streamline environmental reporting requirements. 
Staff is working diligently to develop an approach to 
streamline the requirements in a way that can be supported by 
all the agencies involved in Indian housing projects. We are 
currently exploring the feasibility of creating one standard 
for environmental reporting requirements that would meet the 
needs of these agencies. HUD has proposed that the recently 
created White House Council on Native American Affairs consider 
working on this issue.
    Finally, HUD is encouraged to see the Committee bill 
supporting the reauthorization of the Native Hawaiian 
Homeownership Act. These programs are vital to providing 
housing to more than 26,000 Native Hawaiian families currently 
on the waiting list for decent, safe and affordable housing.
    In addition to these important initiatives contained in S. 
1352, HUD requests that the Committee consider including 
language to support the following principles; clarification of 
existing statutory language to preserve the intent of NAHASDA, 
allocate more IHGB funding according to need and ensure that 
homes are conveyed to families as intended; to authorize the 
collection of data on sustainable construction practices, 
energy efficiency, construction costs and the level of 
assistance provided to elders and veterans from IHBG 
recipients; to require non-dwelling structures funded by 
NAHASDA to also be covered by adequate insurance, like housing 
units are currently required to be covered under the statute, 
as they represent a significant investment of limited funding. 
Also, we are looking for the modification of hearing 
requirements, to allow for the commencement but not completion 
of a hearing with 60 days of instituting an enforcement action.
    HUD has concerns with some of the amendments proposed in S. 
1352. The change to Section 101 regarding program income would 
further loosen already very flexible requirements regarding the 
use and tracking of income generated from IHBG units. Under the 
proposed amendment, income generated on the sale proceeds would 
not be required to be spent on housing or housing-related 
activities. Additionally, we are not able to support the 
proposed amendment to Section 201, because we want to preserve 
the affordability of housing units when NAHASDA funds are 
invested. We want to prevent NAHASDA units from being flipped 
to non-low income or even non-Indian families.
    Finally, we understand that there are concerns regarding 
Indian tribes requesting approval to exceed total development 
costs, or TDC, and the desire to have some flexibility when 
sustainability and housing practices are used in housing 
consruction. We wholeheartedly support sustainability concepts 
and recipients are able to use the statutory requirement 
because it was developed as it is in response to an IG 
investigation regarding the construction of large homes in the 
northwest using NAHASDA funds.
    I would say HUD supports sustainable practices. We are 
happy to provide suggestions and assistance with drafting of an 
amendment that allows for variances for sustainable 
construction, TDC, which also preserves the underlying 
integrity of the policy which is to prevent the investment of 
IHBG funds in a few high cost homes, instead of dedicating the 
funds to producing more affordable housing units.
    We look forward to working with the Committee and the 
Committee staff to provide technical assistance and to discuss 
ways to refine S. 1352 to support our mutual goal: meeting the 
housing needs of American Indian, Alaska Native and Native 
Hawaiian families, and continuing to create sustainable tribal 
communities. Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Henriquez follows:]

 Prepared Statement of Hon. Sandra Henriquez, Assistant Secretary For 
    Public And Indian Housing, U.S. Department Of Housing And Urban 
                              Development
    Good Afternoon Chairwoman Cantwell, Vice Chairman Barrasso, and 
Members of the Committee. Thank you for inviting me to testify on S 
1352, a bill to reauthorize the Native American Housing Assistance and 
Self-Determination Act of 1996 (NAHASDA.)
    My name is Sandra Henriquez and I am the Assistant Secretary for 
Public and Indian Housing (PIH) at HUD. PIH is responsible for the 
management, operation, and oversight of HUD's American Indian, Alaska 
Native, and Native Hawaiian housing programs.
    NAHASDA provides a successful approach, guided by the principles of 
self-determination and self-governance, to providing decent and 
affordable Indian housing and developing tribal economies. The Indian 
Housing Block Grant, the largest program under NAHASDA, has infused 
more than $9.9 billion into Indian housing and community development 
since its inception 16 years ago.
    Over the life of the program IHBG recipients have built or acquired 
more than 35,000 affordable housing units in Indian Country, and 
substantially rehabbed more than 66,000. IHBG recipients also currently 
maintain almost 51,000 ``HUD units'' that were funded before NAHASDA 
was enacted.
    HUD is very pleased that the reauthorization of NAHASDA is a 
priority for this Committee. HUD strongly supports the reauthorization 
of NAHASDA because the law is essential to building sustainable tribal 
communities.
    We are currently analyzing and reviewing S. 1352, and would like 
the opportunity to work with the Committee and staff to provide 
recommendations on some of the existing provisions, as well as offer 
insight on ways to further improve NAHASDA.
    Today, I would like to share with you our initial views on the 
draft bill. First I will comment on the provisions included in the bill 
and then discuss some principles HUD would like to see reflected in the 
bill.
    HUD is particularly pleased to see an effort on the part of the 
Committee bill to address the needs of homeless veterans on 
reservations. For the past year, PIH has collaborated with the 
Department of Veterans Affairs in an effort to a find way to use the 
HUD VASH program to reduce the number of homeless veterans living on 
reservations. We look forward to working with the Committee to further 
tailor the existing HUD VASH program to work in Indian Country.
    HUD also understands the desire of this Committee and IHBG 
recipients to streamline environmental reporting requirements. We 
appreciate the Committees attempt to address this vexing issue but feel 
the issue needs even further study. HUD ONAP staff has been working 
diligently to develop an approach to streamline the requirements in a 
way that can be supported by all the agencies involved in Indian 
housing projects. We are currently exploring the feasibility of 
creating one standard for environmental reporting requirements that 
would meet the needs of these agencies. HUD will also be proposing that 
the recently created White House Council on Native American Affairs 
consider working on this issue.
    And finally, HUD is encouraged to see the Committee bill supporting 
the reauthorization of the Native Hawaiian Homeownership Act. This 
program is vital to providing housing to the 26,546 Native Hawaiian 
families currently on the waiting list for decent, safe and affordable 
housing.
    While we are still reviewing the bill in its entirety, I would like 
to share some initial reactions to proposed amendments to two sections 
of NAHASDA included in S 1352. First, proposed amendments to Section 
104 would further loosen already flexible requirements regarding the 
use and tracking of program income. We need to carefully explore the 
implications of this change on funding for affordable housing and 
Federal oversight. Additionally, we need to consider the possible 
impacts of proposed amendments to Section 205 on the long-term 
preservation of affordable NAHASDA units.
    Finally, we understand there are concerns from Indian tribes 
requesting approval to exceed total development costs (TDC), and the 
desire to have additional flexibility when projects may exceed TDC. 
Under current law, IHBG recipients are able to exceed TDC by 10 percent 
without HUD approval. For example, in the Northwest were the TDC for a 
three bedroom home is around $ 350,000, the current statute allows for 
recipients to exceed this amount by $35,000 without HUD approval 
bringing the TDC up to $385,000. If recipients wish to exceed the 10 
percent cap, under the current regulations they may seek a variance 
from HUD. The proposed amendment would provide recipients the authority 
to exceed TDCs up to 20 percent over the TDC limit without prior HUD 
approval. So if the TDC is $350,000 then it would allow IHBG recipients 
to exceed the cap by $70,000 or up to $420,000 without prior HUD 
approval. It is our understanding that this language is being requested 
to allow for variances caused by the use of sustainable green building 
practices. HUD supports sustainable practices. However, we need to 
carefully balance this goal with the equally important goal of 
preventing the investment of IHBG funds into a few high costs homes 
instead of dedicating the funds to producing more affordable housing 
units.
    HUD would also like to work with the Committee on changes to 
NAHASDA to reflect the following principles:

  <bullet> Enrich the type of data reported by recipients, including 
        data on energy efficiency, construction costs, and level of 
        assistance provided to elders and veterans.

  <bullet> Strengthen insurance requirements to better protect NAHASDA 
        investments and improve retention of records for monitoring 
        purposes.

  <bullet> Preserve the intent of NAHASDA by ensuring that homes are 
        conveyed to families as intended.

  <bullet> Protect NAHASDA funds in emergency situation.

    HUD also shares Congress's concern about the concentration of 
unexpended IHBG funds. In addition to providing intense technical 
assistance to grantees to help build their capacity to expend funds, we 
will work with the Committee on possible statutory amendments that 
would provide HUD additional tools to ensure the timely expenditure of 
IHBG funds by all grantees.
    We look forward to working with the Committee and staff to refine S 
1352 to support the goal we share of meeting the housing needs of 
American Indian and Alaska Native families, and playing an integral 
part in building sustainable Indian communities. Thank you.

    The Chairwoman. Thank you, Assistant Secretary Henriquez. 
Thank you for being here.
    President Keel, thank you for being here.

STATEMENT OF HON. JEFFERSON KEEL, PRESIDENT, NATIONAL CONGRESS 
                      OF AMERICAN INDIANS

    Mr. Keel. Thank you, Madam Chair. Good afternoon, Senators, 
members of the Committee. I appreciate the opportunity to 
appear before you on behalf of the National Congress of 
American Indians, this opportunity to testify about our views 
on S. 1352, the Native American Housing Assistance and Self-
Determination Reauthorization Act of 2013. It is certainly an 
important bill for us.
    The enactment of the Native American Housing Assistance and 
Self-Determination Act in 1996 was rightly seen as a 
significant event in the history of Indian housing, because 
NAHASDA consolidated a number of existing programs into the 
Indian Housing Block Grant. As a tribal leader, I have seen 
what self-determination has achieved for my tribe, and other 
tribes, as we address our housing and infrastructure needs in a 
way that best meets the needs of our citizens.
    NAHASDA has enabled us to design and implement innovative 
housing programs and to leverage those dollars with tribal and 
private resources. NCAI has worked with tribal governments and 
the National American Indian Housing Council to find solutions 
that strengthen and improve housing infrastructure in Indian 
Country.
    NCAI supports Section 101 regarding the treatment of 
program income and labor standards. This provision strengthens 
tribal self-determination and enables tribes to respond most 
effectively to local economic conditions by clarifying language 
that allows tribes to apply their own adopted prevailing wages 
instead of macro wages and to maximize employment opportunities 
for their tribal members when implementing NAHASDA projects.
    NCAI strongly supports the amendments contained in Section 
102 as it promises to expedite housing projects, improve 
efficiencies and eliminate wasteful duplicative environmental 
reviews. One of the innovations of NAHASDA was to allow tribes 
to exercise environmental review requirements that would 
otherwise be carried out by HUD. Tribes have utilized these 
provisions to build their capacity and improve the efficiency 
of their housing programs.
    However, in many housing projects in Indian Country 
involving funding and/or review by various Federal agencies, 
there are additional overlapping and redundant environmental 
review requirements imposed by the Bureau of Indian Affairs, 
Indian Health Service and/or the Department of Agriculture. The 
resulting administrative and legal costs in doing so take funds 
away from constructing houses and cause unnecessary delays for 
critical housing projects. This section will save time for the 
tribes developing housing projects and will save both Federal 
and tribal resources. It is a critical change to ensure 
efficient development of tribal housing projects.
    Section 401, demonstration of rental assistance for 
homeless or at-risk Indian veterans, I have to say that as a 
veteran myself, it is absolutely disgraceful, in my opinion, 
that in this great Country we have to use homeless and veterans 
in the same sentence. NCAI expressed initial concern with this 
demonstration that the resources were carved out from the 
overall NAHASDA program. After further discussion with the 
staff of the Committee, we understand this program will use 
funds from HUD VASH and will complement the Senate 
appropriation language regarding the HUD VASH setaside. NCAI 
looks forward to working with this Committee on this important 
issue. I applaud the intent of Section 401 to ensure tribes 
have access to funding for rental assistance for these homeless 
or at-risk Native veterans.
    NCAI strongly supports the amendments contained in Section 
404. This provision is a top priority of NCAI's tribal tax 
working group, and is supported by NCAI and our partners.
    In addition to our position on the provisions outlined 
above, NCAI's written testimony includes specific 
recommendations that the Committee consider the following areas 
of emphasis that will ensure success of NAHASDA. We urge the 
Committee to ensure that the NAHASDA reauthorization considers 
strategies to ensure the Section 184 Indian Home Loan Guarantee 
program meets its intended focus of expanding home ownership on 
tribal trust lands, expands lending and housing developments 
through the HEARTH Act, ensure that integrated planning is an 
eligible activity under NAHASDA, and ensure ongoing data 
collection and analysis that supports tribal housing.
    In conclusion, I would like to thank this Committee for the 
opportunity to appear before you. As the President of NCAI, I 
can assure you that this is one of the most important bills 
that we will be working on. We look forward to working with 
you. Thank you.
    [The prepared statement of Mr. Keel follows:]

Prepared Statement of Hon. Jefferson Keel, President, National Congress 
                          Of American Indians
    On behalf of the National Congress of American Indians (NCAI), 
thank you for the opportunity to provide testimony about our views on 
S.1352, The Native American Housing Assistance and Self-Determination 
Reauthorization Act of 2013. NCAI looks forward to working with the 
Committee to ensure recommendations coming out of the Committee's 
hearings process take into account the housing needs of Indian Country.
    The 1996 enactment of the Native American Housing Assistance and 
Self-Determination Act (NAHASDA) was rightly seen as a significant 
event in the history of Indian housing. NAHASDA consolidated a number 
of existing programs into the Indian Housing Block Grant (IHBG). This 
system drew lessons from the success of other self-determination and 
self-governance programs. These programs in diverse areas--from health 
to natural resources to economic development--had demonstrated the 
positive impact of empowering tribes to more effectively develop, 
implement, and manage strategies to meet the specific needs of their 
community. The history of NAHASDA has shown the positive impact of 
empowering tribes to develop strategies that meet the needs of their 
communities.
    NAHASDA has transformed how Indian housing programs recognize 
tribes' authority to make their own business decisions and this 2013 
reauthorization addresses the majority of the housing programs that 
serve Indian Country. Tribes have made strides in addressing housing 
and infrastructure conditions in Indian Country through developing and 
managing their own programs and in many cases leveraging NAHASDA 
dollars with tribal dollars. This flexibility is even more important 
given the changed economic environment since 1996, and the various 
policy developments that hold significant potential to enhance housing 
development in Indian Country. NCAI has worked with tribal governments 
and the National American Indian Housing Council to find solutions that 
strengthen and improve housing infrastructure in Indian Country.
    NCAI's comments regarding S. 1352, The Native American Housing 
Assistance and Self-Determination Reauthorization Act of 2013 are 
outlined below. The first section addresses provisions in the bill 
itself, the second section identifies additional areas of opportunity 
for the Committee's consideration.
Section I: Analysis of S. 1352
Title I--Block Grants and Grant Requirements
  <bullet> Section 101. Treatment of Program Income and Labor Standards

    NCAI supports this important provision as it strengthens tribal 
self-determination and enables tribes to respond most effectively to 
local economic conditions.
    This language provides clarification that NAHASDA recipients 
satisfy federal labor requirements when applying tribal adopted 
prevailing wage rates to fund NAHASDA projects. The use of prevailing 
wages instead of macro-wages is a critical distinction to ensure tribes 
have the flexibility to maximize job creation at the local level. For 
example, a Montana tribe who received American Recovery and 
Reinvestment Act funding applied their tribal adopted prevailing wages 
so they could maximize employment for tribal members. The tribe was 
able to offer numerous quality jobs for tribal members--in a 
reservation facing significant challenges with unemployment--paying 
between $16 to $18 per hour. Average wages in the nearest city at that 
time (macro wages) stood between $20 to $22 per hour. If the tribe was 
compelled to apply macro wage standards the result would have been less 
jobs to address the unemployment crisis in that community. This 
provision enhances NAHASDA's purpose to strengthen tribal self-
determination by acknowledging tribes are best positioned to develop 
strategies to meet the needs of their communities.

  <bullet> Section 102. Environmental review

    NCAI strongly supports the amendments contained in Section 102 as 
it promises to expedite housing projects, improve efficiencies, and 
eliminate wasteful duplicative environmental reviews.
    One of the innovations of NAHASDA was to allow tribes to exercise 
environmental review requirements that would otherwise be carried out 
by HUD. For those tribes that have the capacity in-house to conduct 
environmental review, it is both an exercise of the tribe's sovereignty 
and administratively more efficient to have such reviews carried out by 
the tribe. Under the NAHASDA regulations, where a tribe does assume 
environmental review responsibilities, it must do so in accordance with 
the applicable HUD environmental review regulations at 24 CFR parts 50 
and 58. Many tribes and TDHEs have built their capacity to carry out 
environmental reviews consistent with the HUD-mandated process.
    However, because many housing projects in Indian Country involving 
funding and/or review by various federal agencies, in a number of cases 
there are additional, overlapping, and redundant environmental review 
requirements imposed by federal agencies including the Bureau of Indian 
Affairs, Indian Health Service (IHS), and/or Department of Agriculture 
(USDA). The Bureau of Indian Affairs in exercising their authority to 
review and approve residential leases on trust lands may require 
environmental review. Further, when tribes or TDHEs leverage their 
NAHASDA funds by using grant funds from other federal agencies (such as 
the IHS or USDA--Rural Development), that agency's environmental review 
requirements will also apply. Thus, tribes and TDHEs in such 
circumstances will be required to undertake three different 
environmental reviews--all of which are intended to meet the same 
federal statutory requirements under the National Environmental Policy 
Act--because each federal agency has its own guidelines and procedures. 
The resulting administrative and legal costs in doing so take funds 
away from constructing houses and causes unnecessarily delays for 
critical housing projects. This section will save time for the tribes 
developing housing projects and will save both federal and tribal 
resources. It is a critical change to ensure efficient development of 
tribal housing projects.
Title IV--Other Housing Assistance for Native Americans

  <bullet> Section 401. Demonstration of rental assistance for homeless 
        or at-risk Indian Veterans

    NCAI expressed initial concern with this demonstration if the 
resources were carved out from the overall NAHASDA program. After 
further discussion with the staff of the Committee, we understand this 
program will use funds from HUD-VASH and will complement the Senate 
Appropriations language regarding the HUD-VASH set-aside. While NCAI 
understands the intent of Section 401 to include Native veterans in 
Indian housing programs, NAHASDA already enables tribes and tribal 
housing authorities to provide housing services to Native American 
veterans including rental and homeownership services.
    NCAI sees significant potential in the demonstration and hopes that 
HUD-Veterans Affairs Supportive Housing Program (HUD-VASH) will create 
a program to address the problem of veteran homelessness who live on 
tribal lands and are homeless or at-risk of homelessness. NCAI supports 
this demonstration to address homelessness among Native American 
veterans equipping HUD, VA, and HUD Office Veterans Affairs to address 
this issue by using funding from HUD-Veterans Affairs Supportive 
Housing Program, a program that has already demonstrated success in 
decreasing veterans' homelessness by 17 percent since 2009.

  <bullet> Section 404. Preference for projects in Indian areas

    NCAI strongly supports the amendments contained in section 404. 
This provision is a top priority of NCAI's tribal tax working group and 
is supported by NCAI and our partners. The amendments to the Low Income 
Housing Credit ensure access to a critical leveraging tool to develop 
housing on tribal lands. Some tribes have faced barriers in accessing 
the tax credit due to misunderstanding by state governments in 
allocating their credits. NCAI fully supports this provision because it 
appropriately inserts projects located in ``Indian areas,'' as defined 
in Section 4 of NAHASDA, within the selected projects given preference 
under a ``qualified allocation plan.''
Section II: Ensuring the Success of NAHASDA
    In addition to our position on the provisions outlined above, NCAI 
urges the Committee to consider the following areas of emphasis that 
will ensure the success of NAHASDA. Emphasis on these areas will ensure 
that NAHASDA reaches its full potential to advance economic opportunity 
and strengthen self-determination.

  <bullet> Section 184 Indian Home Loan Guarantee Program

    Section 184 of the Housing and Community Development Act of 1992 
began to address one of the fundamental challenges faced by Indian 
housing--the lack of private mortgage financing. The program provided 
an assured federal payment of 100 percent of an outstanding mortgage 
balance if a borrower defaulted on his/her loan. The program authorizes 
the BIA and HUD to approve borrowers and land leases in order to 
guarantee loans from private lenders to Native American families, 
tribes, and housing authorities. The home and the leasehold interest in 
the home site are mortgaged and are subject to liquidation in case of 
foreclosure, although eligible tribal members, the tribe, or the 
relevant Indian Housing Authority are first offered a chance to assume 
the leasehold interest and continue payments. In order to participate 
in HUD mortgage guarantee programs, HUD must review the tribe's legal 
ordinances which include: leasing, mortgage lending, eviction and 
foreclosure as well as the code enforcement process through the tribal 
courts system or another court of competent jurisdiction (designated by 
the tribe).
    Using Section 184, Indian tribes or tribal members can purchase an 
existing home; obtain single-close construction loans for stick-built 
or manufactured homes on a permanent foundation; obtain rehabilitation 
loans; or obtain both a purchase and rehabilitation loan. In 2004, HUD 
expanded the Section 184 program to allow tribes to petition the agency 
for the right to extend their service area or ``Indian Area'' to 
include Native-owned homes off-reservation. These off-reservation units 
exist in areas where a particular tribe traditionally resided or where 
significant members now live. As a result, certain tribes can now apply 
the Section 184 program to all of their members residing within a 
particular state instead of just within their reservation's borders.
    The Section 184 program is one of the most successful homeownership 
programs for Indian Country and is a model for other homeownership 
programs. Since the program was established, there have been almost 
22,000 Section 184 transactions totaling $3.5 billion in loans that 
serve Native borrowers. According to the most recent figures from HUD, 
these loans include 2,656 transactions on tribal trust lands totaling 
$290 million; 526 transactions on allotted land totaling $73.6 million; 
and 18,760 transactions on fee simple land totaling $3.15 billion. 
Based on these numbers, tribal trust and allotted land transactions 
make up only 14.5 percent of Section 184 transactions. NCAI continues 
to be concerned that a significant proportion of Section 184 loans are 
not on tribal trust or individual trust lands, contrary to the original 
intent of Section 184 to increase homeownership on tribal lands. NCAI 
urges the Committee to consider the following challenges to increasing 
Section 184 loans on tribal trust lands:

        1. Financial Investors and Institution: Especially given the 
        tightening of mortgage markets and challenges faced by the 
        financial sector in general since the financial crisis, it is 
        imperative that Congress address the limited access to capital 
        on tribal lands. The most recent available data note that 86 
        percent of Native communities lack access to a single financial 
        institution. This absence presents significant challenges to 
        attracting investors and securing home mortgages in Indian 
        Country. This challenge has long-term implications for the 
        overall economic health of tribes given that the final report 
        of the President's Council on Financial Capability noted that 
        the lack of well designed and accessible financial products and 
        services challenges the capacity to enhance financial 
        capabilities.

        2. Financial Capabilities: NCAI strongly advocates for tribes 
        to enact comprehensive programs and policies that promote 
        increased financial capability for tribes and for Native 
        peoples--and for Congress to assure that the resources to do 
        this are included in the NAHASDA reauthorization. Increased 
        financial capability is a foundation for building permanent 
        assets to strengthen their communities' economies. Housing 
        programs offer a critical opportunity to include programs and 
        policies that directly address individual's ability to become 
        financially literate and make more informed financial decisions 
        for themselves and their families.

        3. Leasing Regulations: As outlined below, the July 2012 
        passage of the Helping Expedite and Advance Responsible Tribal 
        Homeownership (HEARTH) Act presents a critical opportunity for 
        HUD to expand housing development utilizing expedited leasing 
        processes. This effort will require close coordination with the 
        Bureau of Indian Affairs and consultation with tribes to ensure 
        effective implementation. NCAI believes that streamlined 
        leasing will increase Section 184 loans on reservation, and 
        enable potential tribal homeowners to successfully meet 
        requirements used by financial lenders to process and complete 
        home mortgage loan applications.

  <bullet> Expanding Lending and Housing Development through the HEARTH 
        ACT

    The HEARTH Act presents the opportunity for tribes to lease 
restricted lands for residential housing, and will spur homeownership 
on tribal lands for middle class tribal communities. The new law is 
focused on Indian housing, and authorizes surface leasing of tribal 
lands without approval from the Secretary of the Interior. Instead, 
tribal leases can be approved by the tribe under tribal leasing 
regulations. The new law will enable tribes to move more quickly on 
leasing and economic development, while maintaining the Secretary's 
trust responsibility to oversee trust lands. The BIA has already 
approved several tribal leasing codes, but much more work is needed to 
implement the law and ensure that all tribes are able to take advantage 
of its opportunities.
    First, tribal leasing codes under the HEARTH Act must be developed 
and made consistent with the BIA's recently updated leasing 
regulations, 25 C.F.R. 162. The BIA has also published a National 
Policy Memorandum containing a list of criteria that should be 
considered. Key requirements include leasing code development and an 
environmental review process. Many tribes will need technical 
assistance and staffing not only in developing codes, but also in the 
review and approval processes. As the NAHASDA legislation moves 
forward, we would encourage the Committee to authorize the use of 
NAHASDA funds for this purpose.

  <bullet> Ensure integrated planning is an eligible activity under 
        NAHASDA

    Tribes may already use NAHASDA funds for the basics of planning for 
housing, including related infrastructure like water, power and sewage. 
However, NCAI encourages the Committee to make more planning resources 
available to integrate housing planning with all other planning for 
economic development and jobs, education, transportation, agriculture 
and food, and the development of communities with health active 
lifestyles.
    In Indian Country, there is a growing emphasis on planning for 
economic development and jobs and recognition of the importance of 
business agglomeration. Industries tend to cluster in certain regions, 
and it is important for tribes to plan and build businesses and jobs 
that complement their existing strengths.
    Tribal industries tend to cluster in certain areas such as:

  <bullet> Gaming/Hotel/Recreation/Entertainment
  <bullet> Agriculture, Oil & Gas, Timber
  <bullet> Commercial Real Estate
  <bullet> Government Contracting--638 and 8(a)
  <bullet> Retail--Indian owned and taxed businesses
  <bullet> Housing
  <bullet> Roads
  <bullet> Health Care
  <bullet> Education
  <bullet> Law Enforcement
  <bullet> Native Arts & Crafts

    All of these industries create jobs and create a demand for local 
housing. By the same token, there is a need for job creation for the 
Native people who live in Indian housing. Greater integration of 
housing and economic development planning is needed.
    In addition, as tribal communities grow, it is essential to look at 
economic and environmental realities in order to make critical 
decisions about our future. That means tribal planning must address 
issues such as climate change, peak oil and food insecurity. Food and 
energy consume huge portions of tribal economies and must be considered 
in relation to tribal self-determination. The new millennium is a time 
when we are facing the joint challenges of an industrial food system 
and a centralized energy system, both based on fossil fuels, and both 
of which are damaging the health of our peoples and the Earth at an 
alarming rate. Tribal communities have long supplied the raw materials 
for nuclear and coal plants, huge dam projects, and oil and gas 
development. These resources have been exploited to power far-off 
cities and towns, while many tribes remain deficient in sources of heat 
or electricity.
    Tribal communities also laid the groundwork for agriculture on this 
continent. Yet today, tribes produce less and less of their own food 
and instead rely upon imported foods. This is not a sustainable way to 
ensure the stability of our tribal communities, our environments and 
our cultures. NAHASDA should support more planning for the linkages of 
housing, jobs and lifestyles and support tribal efforts to create 
sustainable energy and food economies for this millennium and for the 
generations yet to come. Planning supports the creation of local 
economies, using the resources available to each Indigenous community.

  <bullet> Ensure ongoing data collection and analysis that supports 
        tribal housing

    As the Committee is well aware, tribes and tribal housing entities 
face significant challenges in accessing current and reliable data to 
develop the most effective housing strategies to meet the needs of 
their people. This challenge is certainly partially the responsibility 
of HUD--the most recent Native American Housing Needs Study was 
completed in 1999--but the problem also extends to other agencies. The 
three most prominent examples are:

        1.  the American Community Survey poses significant data 
        quality challenges at the local level with the concerns 
        identified by rural and remote communities being even greater 
        in Indian Country;

        2.  the 2001 Native American Lending Study, conducted by the 
        Department of the Treasury's CDFI Fund, provides critical data 
        about access to capital and is yet to be updated, 12 years 
        since its publication; and,

        3.  the Bureau of Labor Statistics (BLS) essentially excludes 
        data from Indian reservations in the monthly labor force 
        reports, and there is a wide discrepancy between DOI labor 
        force reports and those presented by BLS.

    NCAI urges the Committee to explicitly include regular data 
collection and analysis in the 2013 NAHASDA reauthorization. As noted 
above, there are challenges of timely data collection, but there are 
also some challenges that could be addressed simply through more 
effective interagency coordination. It is also clear that there are 
several data reports required by HUD that are not analyzed or provided 
to tribes to assist in developing the best housing strategies.
    One solution that NCAI has proposed to address this challenge would 
be to provide a clearinghouse to provide tribes and tribal housing 
entities with access to pertinent data collected by the Federal 
Government. As the President has noted in his ``open government'' 
strategies, access to data can enable more effective policy 
development. Similar to the information collected and provided through 
the Recovery.gov clearinghouse, HUD could partner with other agencies 
to provide tribes and tribal housing entities with access to data that 
can support effective policy making. This initiative could also map 
existing data requirements and ensure data reports that are required of 
tribes to ensure the requirements are useful to tribes and the Federal 
Government in developing housing policies.
Conclusion
    NCAI thanks the Committee for its commitment to the important goals 
of tribal self-determination through flexible and effective housing 
policy. We look forward to working with the Committee throughout the 
reauthorization of NAHASDA to ensure the reauthorization takes the 
steps necessary to enable tribes to improve the housing condition for 
their tribal communities and effectively respond to the changed 
economic environment.

    The Chairwoman. Thank you, President Keel. Thank you for 
your testimony.
    Before I go to questions by numbers, I wanted to point out 
on our agenda we were going to hear from the Chairwoman of the 
Fond du Lac Tribe, who is unable to make it here today, a last 
minute emergency situation. So I was wondering if Senator 
Franken wanted to make a statement now on behalf of that bill.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Sure. I think Ms. Harris spoke to it very 
well, so maybe I can speak to it when it gets to my turn to ask 
questions. I would like to thank Ms. Harris. Chairwoman Diver 
couldn't make it today, and it is too bad, because she is 
wonderful.
    The Chairwoman. Good. Thank you.
    Well, let's turn to questions, then, and President Keel, 
you mentioned some things aside from S. 1352 that you think we 
should be doing. First of all, thank you for your service to 
our Country. I think you articulated with passion this issue as 
it relates to our veterans.
    Are there other things you think we need to do? Because the 
hearing that this Committee had on the housing issue, I can 
say, just about everybody who was here expressed some level of 
frustration at the state of housing in Indian Country.
    Mr. Keel. I think you have heard from others previously 
that housing, safe, affordable housing in Indian Country is in 
dire need. You have heard that there are over 200,000 units 
that are needed right now. Tribes have been able to develop 
programs to best suit their needs in Indian Country or in their 
own communities. But oftentimes there are so many regulations 
that are imposed that it becomes very discouraging and time, 
well, we just run out of time.
    The Chairwoman. What about that, Assistant Secretary 
Henriquez, this issue of, for example, the major Federal 
partners program and streamlining that? More efforts to allow 
housing to happen more quickly?
    Ms. Henriquez. I do believe that I would agree with the 
Chairman. I believe that what we need to do across Federal 
Government is really look to see what all of our programs do 
and where the gaps are and then figure out, like we were 
suggesting in environmental, to streamline so that we can, 
across the Federal Government, accept each other's reports or 
decide that there is one report we will all accept, so that we 
can streamline both for ourselves, but more importantly, for 
our partners in Indian Country who want to make sure that the 
resources go as far as possible.
    The Chairwoman. What about waiver requests? We heard even 
at our hearing that waiver requests were slowed down, not a 
very timely response.
    Ms. Henriquez. From our experience at HUD, for example, on 
the total development cost, in the past three years we have had 
three waivers to exceed the 10 percent. We have approved those 
three. We have not been aware that they have held up any of the 
construction-related opportunities that they were meant to 
remedy.
    So we do them on a case by case basis. But we understand 
timeliness. We understand in some places in Indian Country it 
is more costly, you lose a construction season and so on. So if 
there are specifics, we would like to hear what those are, but 
we have not seen them yet come across our desks.
    The Chairwoman. Okay. We will be glad to get some of those 
specifics for you.
    Ms. Henriquez. Thank you.
    The Chairwoman. Ms. Harris, you mentioned your support of 
the Senate Bill 920, and obviously, if we pass this 
legislation, how long will it take for us to actually see the 
land transfer? Is this something that can be timely done? 
Because obviously this negotiation has been going on for a long 
time. So obviously, the ease of passage of this legislation, we 
would assume that that land into trust would be done in a 
reasonable time frame. Do you have any comments on that?
    Ms. Harris. Certainly. It is difficult to predict exactly 
how long it would take to put the land into trust. But if and 
when the tribe does submit a fee to trust application, the 
Department would certainly work expeditiously to take the land 
in trust for the tribe as we do with all fee to trust 
applications. Acquiring land in trust for Indian tribes is our 
mission and it has been a priority.
    The Chairwoman. So on something like this, when an 
agreement has been reached, are we talking a year or years, 
less than five years?
    Ms. Harris. I can't predict how long it would take. It 
really just depends on the application. There are a number of 
criteria that we consider under our regulations. We would work 
expeditiously to work through those criteria.
    The Chairwoman. But one of the reasons why we are passing 
this legislation is obviously to clear up some of the issues 
that might have to be sorted out.
    Ms. Harris. I understand. I am happy to speak with the 
folks at the Bureau of Indian Affairs and get back to you.
    The Chairwoman. That would be great. We would love a 
general time frame. The Committee is trying to understand, on a 
lot of different issues, what the process and time frame is so 
that we have a clear understanding.
    Mr. McSwain. obviously the Consortium, how much will the 
Consortium save in outside contracts when the residential 
facility is built?
    Mr. McSwain. That is a question I will defer to Mr. Teuber. 
He mentioned that he had a fair amount of costs, just in the 
tribal people. It sounds like a lot of housing that he has to 
provide in the absence of that . I defer to Mr. Teuber to 
answer that question.
    Mr. Teuber. Yes, thank you. I believe the annual sum is 
estimated for this year to be $4.5 million for outside 
contracts that we are using for local Anchorage-based hotels.
    The Chairwoman. Okay. So very cost efficient process to 
build the facility?
    Mr. Teuber. That is correct. I think that the opportunity 
before us is one where we can provide a more culturally 
appropriate setting for our expectant mothers, for those who 
are traveling in with traumatic injuries, for the convenience. 
Anchorage can sometimes be a difficult place for Alaska Natives 
who come from rural parts of the State to navigate in order to 
receive their services at ANMC.
    The Chairwoman. Okay. Vice Chairman Barrasso?
    Senator Barrasso. Thank you, Madam Chairman.
    Questions for Jefferson Keel. Everyone here knows your 
service as a former Army Ranger. You are a decorated military 
veteran, we are so grateful for your service and for what you 
continue to do for this Country. I know that you are quite 
familiar with issues facing our Nation's veterans, and you 
specifically spoke to that.
    S. 1352 includes a demonstration project to assist Indian 
veteran housing. It allows tribal housing programs to use 
current administrative infrastructure to operate the HUD 
Veterans Affairs Supportive Housing voucher program. You talked 
about running out of time, trying to use different programs. I 
am wondering if you think the current tribal administrative 
infrastructure needs to be adjusted to operate this voucher 
program?
    Mr. Keel. Thank you, Senator. I believe that there are, 
first of all, we do support the demonstration project. I think 
that is a very important project. As soon as we can get that in 
place, it would be a tremendous advantage. I think there are 
times when many of our people don't qualify for some of these 
vouchers. Sometimes there is a misunderstanding between the 
access to those vouchers between the State. Some of the housing 
authorities are chartered under State law. Therefore we have to 
go through the State administration to get our veterans applied 
to this. I think that will be clarified by this.
    Senator Barrasso. One of the components of this 
demonstration project for the Indian veterans requires that the 
tribal grantees provide information to the Secretary of HUD to 
assess the project's effectiveness. I am wondering how you 
think the effectiveness of this demonstration project should 
really be determined.
    Mr. Keel. That is very difficult to say until it actually 
begins. But I would think that there are a number of tribal 
housing authorities across the Country that have, there are a 
number of tribes that have developed programs already to assist 
these veterans in their own communities. So I think that 
reaching out to them for information and their input would be 
very helpful.
    Senator Barrasso. Thank you. Thank you, Madam Chairwoman.
    The Chairwoman. Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Madam Chair. I want to thank you 
and Ranking Member Barrasso for introducing, along with a bunch 
of co-sponsors, myself included, the NAHASDA bill. My 
questioning is going to focus on that.
    I am going to start with you, Sandra Henriquez. Thank you 
for being here. There are statistics out there that show that 
American Indians suffer from homelessness and severe housing 
needs, such as overcrowding, lack of plumbing, heating, 
electricity. Have you seen those statistics?
    Ms. Henriquez. I have seen the statistics; more 
importantly, I have seen the housing.
    Senator Tester. Perfect. What do you see as your role in 
improving that situation?
    Ms. Henriquez. I think there are several things. I think my 
role is, one, to both advocate for the program, to advocate for 
funding for the program, and to advocate for a set of rules, 
regulations, that streamline the operations, so that money can 
be used more effectively by the tribes.
    Senator Tester. Good. Did you have money set aside for 
Indian housing directly? Is there a carve-out for that in your 
budget?
    Ms. Henriquez. There is a line item in the HUD budget for 
Native American, Native Hawaiian and Native Alaska housing.
    Senator Tester. How much is in that line item?
    Ms. Henriquez. I think with the President's 2014 request, I 
think it was about $650 million.
    Senator Tester. So if you are a tribe in, let's say the 
Crow Indian Reservation in Montana, how do they get access to 
that money?
    Ms. Henriquez. It is done by formula. And the formula is 
done through a consultation, negotiated rulemaking process. The 
last consultation and formula happened a number of years ago. 
In fact, by the end of August, we will start a new one. It is 
all formula driven by membership.
    Senator Tester. So each tribe right now there is a formula 
out there that each tribe, and I assume Alaska Natives and 
Hawaiian Natives would be in the same boat?
    Ms. Henriquez. Alaska Natives are. Hawaiian Natives are in 
a different allocation.
    Senator Tester. Okay. That is fine. So each tribe gets X 
number of dollars, is that the way it works?
    Ms. Henriquez. Correct, based on their size and membership 
enrollment.
    Senator Tester. Based on population or based on land mass?
    Ms. Henriquez. Based on population.
    Senator Tester. Okay. And when was the last time that that 
formula was looked at?
    Ms. Henriquez. Five years ago, I am being told, sir.
    Senator Tester. And then I assume it is updated with every 
census?
    Ms. Henriquez. We will be going into it again at the end of 
this month, I am sorry, at the end of August, we will start 
formal negotiations again with tribes.
    Senator Tester. There is $650 million in that fund. 
Realistically, just realistically, how many dollars should be 
in that fund?
    Ms. Henriquez. I don't know how to answer that question. I 
would say this. We are currently conducting a housing needs 
survey in Indian Country, which will help us quantify what the 
need is. The 200,000 number that we have right now we think is 
probably low. We think the need is significantly greater.
    Senator Tester. When do you anticipate that needs survey to 
be back?
    Ms. Henriquez. We are probably a year away. We started the 
survey instrument in collecting and training and have asked 
other tribes as well to use the survey and submit it to give us 
more information.
    Senator Tester. I certainly hope that that will be 
distributed to this Committee when it is done.
    Ms. Henriquez. Yes, sir.
    Senator Tester. Very good, thank you. A number of the 
Plains Tribes have contacted me, there are concerns about 
training and technical assistance dollars. Are you familiar 
with this fund?
    Ms. Henriquez. Yes.
    Senator Tester. They argue that NAHASDA's original 
negotiated rulemaking determined that the spirit and intent of 
NAHASDA was to deliver training and technical assistance 
through the National American Indian Housing Council. However, 
administrators tell me this process has changed. Has it 
changed?
    Ms. Henriquez. Yes, sir. It changed in the fiscal year 2013 
appropriations language. It directed us to initiate competition 
for organizations and contractors with experience in Indian 
housing to provide services.
    Senator Tester. So that was done in 2013?
    Ms. Henriquez. Yes.
    Senator Tester. HUD approps?
    Ms. Henriquez. Yes, sir.
    Senator Tester. Okay, thank you for that.
    We have a little bit of time left. I am going to go to 
Jefferson Keel. Jefferson, you represent NCAI, you represent, 
and correct me if I am wrong, about 560 tribes, somewhere 
around there?
    Mr. Keel. Yes, sir.
    Senator Tester. Could you give me an idea, number one, are 
they pretty well united behind NAHASDA? Are there issues that 
they have with this bill generally speaking that are systemic? 
Or are they pretty happy with the way it is designed?
    Mr. Keel. Generally speaking, I believe that across Indian 
Country, Indian Country is united that NAHASDA does definitely 
need to be reauthorized.
    Senator Tester. Okay. I just want to thank you all for your 
testimony. I appreciate it. I am sorry I didn't ask the other 
three questions, but, next time.
    The Chairwoman. Senator Franken.
    Senator Franken. Thank you, Madam Chairwoman, for holding 
this hearing. Thanks to the Vice Chairman.
    I want to thank Ms. Harris for her testimony, all the 
witnesses. As you mentioned, Chairwoman Karen Diver was 
supposed to be here today. She couldn't make it, and she was 
going to talk about this bill, S. 920. So I ask that her 
testimony be added to the record.
    The Chairwoman. Without objection.
    Senator Franken. Thank you.
    I would like to briefly describe the bill. S. 920 would 
allow the Fond du Lac Band of the Ojibwe in Minnesota, transfer 
its lands at its own discretion, it is a tract of land. 
Basically their land is checkerboarded. This would just be 
exchanging land with the county, Carlton County, that is 
outside the reservation. Carlton County would get that. The 
tracts of land are of equivalent value. And it has to be done 
this way, because the law that is relevant here prohibits any 
``purchase, grant, lease or other conveyance of lands or of any 
title or claim to thereof from any Indian nation or tribe of 
Indians unless authorized by Congress.''
    So we just have to pass this, and that is what we have to 
do, right, Ms. Harris?
    Ms. Harris. Right.
    Senator Franken. And you guys are for this?
    Ms. Harris. Yes. We are certainly for this.
    Senator Franken. It is non-controversial.
    Ms. Harris. Right.
    Senator Franken. This is just allowing these things that 
are of equal value, for Fond du Lac to get land within its 
reservation back that it can build houses on and also use for 
hunting and stuff like that. I just want my colleagues to know 
this is really a non-controversial piece of legislation. I will 
move on.
    Assistant Secretary Henriquez, as you know, Minnesota 
tribes have been leaders in providing services to Native 
American veterans. One thing, Native Americans volunteer for 
military service at a higher rate than any other ethnic group 
in the Country.
    Ms. Henriquez. That is correct.
    Senator Franken. And the Fond du Lac Band just held a grand 
opening for a new development to provide 10 units of supportive 
housing for Native American veterans. This is the first 
project, as I understand it, in the United States that 
specifically addresses the needs of homeless veterans on a 
reservation.
    I support the provision in the reauthorization of the 
Native American Housing and Self-Determination Act that will 
help tribes better access funding through the HUD Veterans 
Affairs Supportive Housing program. Let me ask you, how would 
your administration help innovative tribes like the Fond du Lac 
access this program?
    Ms. Henriquez. Let me start by saying that the VASH 
program, as you know, is done with HUD in conjunction with the 
Veterans Affairs. They provide the referrals of veterans to 
housing authorities. Our intent is to replicate that program, 
not to make it more complicated. We talked about a 
demonstration, we asked the Veterans Affairs if they could 
identify for us where they would do referrals in Indian 
Country. They have a program with Indian Health Services to act 
on their behalf. We think that there is plenty of need. We want 
to be able to streamline it, provide greater access to a source 
of funds for rental assistance that tribes have not had access 
to before.
    Senator Franken. Thank you. This is for Chairman Keel. As 
we consider reauthorizing the Native American Housing and Self-
Determination Act, I think it is important for everyone to 
remember that homelessness in our tribal communities often 
doesn't look like homelessness in other parts of the Country. 
In Indian Country there aren't a lot of emergency shelters or 
transitional housing. Those who need help often are taken in by 
other members of the community, which can lead to overcrowding.
    That also makes it hard to measure the true level of need 
in Indian Country. When we can't measure the true level of 
need, it is difficult to secure the resources to improve access 
to safe and affordable housing.
    So my question, Chairman Keel, is can you talk to me about 
some of the ways tribes have worked to document the need for 
affordable housing in their communities? How can the Federal 
Government support efforts to get an accurate measure of the 
true level of need in Indian Country?
    Mr. Keel. Thank you, Senator, for that question. You 
described it very well. Many times in Indian Country, in our 
communities, homelessness is not really officially documented, 
because we have family and friends who will come and stay, they 
have no other place to go, and their families are not willing 
to put them out on the street. So they actually become 
residents of that shelter or that home.
    So we may have upwards of two or three families occupying 
one building or a home that is designed to accommodate one 
family. Even in our housing authority, and HUD, our homes are 
built two or three bedroom. Very few four bedroom to 
accommodate larger families. And so again, it is very, very 
difficult to document.
    But in many of our communities, we utilize our community 
health representatives, the CHRs and other tribal employees, 
and community health nurses and those folks, to help us acquire 
or get the documentation that is needed. Then we assist those 
families in going and applying for housing.
    Another issue is that many of our families don't qualify 
because of either income guidelines, there is a catch-22. If 
you have no income you don't qualify for housing. But you can't 
have income if you don't have a job. In many of our 
communities, the jobless rate, the high unemployment rates in 
many of our communities is sometimes upwards of 25, 30, 50 
percent in some communities. That is very hard to document.
    So it is a revolving cycle. But again, we utilize our 
tribal employees, many of our health representatives, our 
veterans assistance programs and even just family members to 
come and help provide some of that documentation.
    Senator Franken. Thank you. Thank you, Madam Chairman.
    The Chairwoman. Senator Johnson?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Mr. Henriquez, housing needs in Indian 
Country, I am concerned about unspent NAHASDA funds. Have you 
found that unspent funding is a widespread issue or one that is 
attributable to just a few agencies? What steps has HUD taken 
to address this issue?
    Ms. Henriquez. Thank you, Senator, for the question. First, 
I want to say that it is important for everyone to realize that 
most tribes, the vast majority, get their allocations and spend 
it and spend it in a timely way. Until recently, there was no 
time frame in which housing agencies or tribes had to obligate 
their money. As of 2012, there is now a five-year obligation 
deadline.
    That said, the monies put into our control system for 
housing authorities to draw down, for tribal agencies to draw 
down, the oldest money gets drawn out first, so that we try and 
make sure that people are staying as current as possible. We 
have also implemented new reporting requirements through the 
last negotiated rulemaking. That gives us a fuller picture and 
we continue to take enforcement actions where we are noticing 
that spending habits and patterns are not consistent with both 
need and with the plans that the tribes file for themselves.
    Senator Johnson. Ms. Henriquez, as Paul Iron Cloud from 
Pine Ridge noted at a recent hearing, tribes in South and North 
Dakota have undertaken a Dakota housing needs assessment pilot 
project in order to get population and needs data to counter 
less accurate census numbers. What obstacles do tribes face to 
use this data in lieu of census data for purposes of the 
housing formula?
    Ms. Henriquez. I can't think of any obstacles. In fact, we 
are conducting a housing needs survey, and we have asked 
tribes, such as Pine Ridge, to contribute the work they are 
doing in their own tribes to augment the survey that we are 
taking, that is being done by the Department. We think that 
pulling both the statistically significant sample that we are 
doing along with the information that the tribes are collecting 
and sharing with us, will give us a very broad and better 
picture of the need of what housing is required in Indian 
Country.
    Senator Johnson. Ms. Henriquez and President Keel, are 
there tools HUD needs from Congress in order to assist tribes 
in leveraging their NAHASDA funds with private and other 
Federal sources of funds?
    Ms. Henriquez. Thank you, sir. It is a great question. I 
should say that what we need is the expansion, the use of tax 
credits in Indian Country, using those as a development tool to 
get other people's money into the mix to augment Federal 
dollars, so those dollars would go farther. It would help 
stimulate both economic development, increase housing. 
Increasing housing is an economic driver as well, but also to 
put in place much-needed housing for tribes on reservation 
land.
    I also think that we need to encourage the banks to do 
business in Indian Country. When I do an event in Indian 
Country, I always see who has been funding a particular housing 
project that has been built, and I ask those bankers and 
investors to please go talk to their colleagues in the business 
to get them to understand that these are dollars well invested, 
will be well spent, will be cared for. It is a good risk, it is 
a worthy risk, and that they should think about expanding their 
business models into Indian Country as well.
    Senator Johnson. President Keel?
    Mr. Keel. Yes, sir, thank you, Senator, for that question. 
The idea that, well, first of all, in Indian Country, Indian 
tribes lack access to capital. The limited number of financial 
institutions or lending institutions or investors really 
inhibits our ability to develop programs that will accommodate 
our citizens.
    The most recent data that we have has noted that 86 percent 
of Native communities lack access to a single financial 
institution. That is incredible. So we would ask that the 
President's Council, now, this new Council on Indian Affairs, 
would address that and take that across all Federal agencies.
    We also believe that the HEARTH Act will assist in the 
tribal leasing laws, so that tribes can develop then their own 
systems and accommodate that.
    The final thing would be the HUD 184 loan program that 
allows tribes to, or individual homeowners, to access loans to 
build homes.
    Senator Johnson. To what degree does trust status and 
Indian law impact the lack of financial institutions in Indian 
Country?
    Ms. Henriquez. Thank you, Senator. I do believe that having 
trust land in the mix in terms of developing housing makes it 
harder for financial institutions just to understand the model. 
I think if they just spent time understanding the model, 
understanding that it doesn't increase the risk, that they 
would be more comfortable over time seeing it work and having 
examples that are successful.
    Senator Johnson. Thank you, Madam Chairman.
    The Chairwoman. I want to thank all the members of the 
Committee for their presence today, and for the witnesses being 
here and your testimony. All three of these pieces of 
legislation are important to the Committee and we look forward 
to moving them when we return in September. This hearing is 
adjourned.
    [Whereupon, at 3:52 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Brian Schatz, U.S. Senator from Hawaii
    I want to thank the Chair and Vice-Chair for holding this important 
hearing today to consider three important legislative measures. I 
especially want to thank Senator Cantwell and Senator Barrasso for 
their strong leadership in introducing and holding a prompt hearing on, 
S. 1352, a bill to reauthorize the Native American Housing and Self-
Determination Act (NAHASDA) through the end of fiscal year 2018. I 
strongly support NAHASDA reauthorization and share the high priority 
the leadership and members of this Committee place on addressing the 
unmet housing needs of Native Americans.
    S. 1352 seeks to further tribal self-governance, streamline and 
simplify the process of providing housing assistance to Native 
communities and strengthen the Department of Housing and Urban 
Development (HUD) housing assistance programs that have been so 
successful in helping Native Hawaiian families and so many American 
Indians and Alaska Native families gain access to much needed housing.
    American Indians, Alaska Natives and Native Hawaiians face unique 
barriers to housing development and their communities face the highest 
rates of national poverty. The most recent data available from the 
Department of Housing and Urban Development, the Census Bureau, and the 
Government Accounting Office illustrates the widely disproportionate 
rates of unmet housing need faced by Native Americans.

  <bullet> Approximately 28 percent of reservation housing units lack 
        adequate plumbing and kitchen facilities, a rate more than five 
        times greater than the national average;

  <bullet> Nearly 46 percent of Native households are overcrowded, a 
        rate almost three times greater than the rest of the country; 
        and,

  <bullet> While Native Americans make up less than 1 percent of the 
        general population, they comprise 8 percent of the country's 
        homeless.

    These national statistics are a stark reminder of existing housing 
disparities between Native and Non-Native communities in the United 
States, and yet the data for the State of Hawaii is even worse. 
Unfortunately, HUD statistics have shown that Native Hawaiians face the 
highest rates of inadequate housing, overcrowding and homelessness in 
the nation.
    There are other factors, but two facts contribute significantly to 
the challenges faced by many Native Hawaiian families in search of 
decent and affordable housing: Native Hawaiian families rank last in 
the nation in average annual pay, while the cost of living in Hawaii 
ranks the highest of all fifty states--116 percent of the national 
average.
    NAHASDA housing assistance has played a critical role in helping to 
address the housing needs of Native Hawaiian families in my state. I 
have witnessed the success of these HUD programs--how they have 
benefitted Native Hawaiian communities, increased homeownership, 
improved living conditions, and changed lives. Native Hawaiian housing 
assistance programs remain an integral part of the NAHASDA success 
story and I look forward to working with my colleagues to advance this 
measure through the Congress.
    Thank you to all of the witnesses who travelled here to participate 
in this hearing. Your contributions will be invaluable to the Committee 
as we move forward on this Native American housing assistance 
reauthorization legislation. We must all pledge our best efforts to 
support, S.1352, to sustain and improve housing opportunities, build 
stronger and more self-sufficient Native communities, and create a more 
vibrant national economy.
    Thank you.
                                 ______
                                 
Prepared Statement of Hon. Karen R. Diver, Chairwoman, Fond du Lac Band 
                       of Lake Superior Chippewa
    I am Karen R. Diver, Chairwoman of the Fond du Lac Band of Lake 
Superior Chippewa. On behalf of the Fond du Lac Band, I would like to 
thank the Committee for scheduling this hearing to consider S. 920, and 
for inviting me to testify regarding this bill. I would also like to 
thank Senator Franken and Senator Klobuchar for their work in 
considering the Band's request for this measure and for introducing 
this bill.
    The Fond du Lac Band and Carlton County, Minnesota have been 
working jointly on a number of matters. One of these, which brings us 
to Congress, is our effort to find ways in which the Band and the 
County can address problems arising from checkerboard land ownership 
within the Fond du Lac Reservation, and enhance the ability of both the 
Band and the County to make the best use of the lands that each of us 
holds.
    S. 920 would enable us to do this. S. 920 would provide the Band 
with authority under federal law to convey title to land that the Band 
holds in fee simple. This would address the last remaining step that is 
needed in order for the Fond du Lac Band and Carlton County to 
implement an agreement that we have for a land exchange that will 
greatly benefit us both and which has been processed through and 
satisfied all other requirements of Minnesota law. Carlton County's 
support for this measure is set out in a letter dated July 3, 2013 from 
Robert Olean, Chair, Carlton County Board of Commissioners, to Maria 
Cantwell, Chairwoman of the Senate Committee on Indian Affairs. A copy 
of the County Commissioner's letter is attached to this testimony and 
we ask that it be included as part of the record.
    We also note that a companion bill to S. 920, H.R. 2650, was 
introduced in the House on July 10, 2013 and referred to the House 
Natural Resources Committee, Subcommittee on Indian Alaska Native 
Affairs which held a hearing on that bill on July 23, 2013.
Background
    The Fond du Lac Band occupies a Reservation in northeastern 
Minnesota that was carved out of our aboriginal territory pursuant to 
our 1854 Treaty with the United States. Treaty of September 30, 1854, 
10 Stat. 1109. Our Reservation is but a fraction of the Band's 
aboriginal territory and is the home of more than 6,700 Tribal members 
and other Indians who live on and near the Reservation. The 1854 Treaty 
established a Reservation that encompassed more than 101,000 acres. 
While the Treaty provided that this was to be a permanent homeland for 
the exclusive use and benefit of the Fond du Lac Band, as a result of 
the federal allotment policies in the early Twentieth century, a 
considerable part of our Reservation lands were opened to private entry 
by homesteaders and others. Over the years, many of those lands were 
forfeited for nonpayment of taxes, and have since been administered by 
the County with title held by the State of Minnesota. Land-ownership 
within the Reservation is checkerboarded, with tax-forfeited lands held 
by the County intermixed with trust land held by the Fond du Lac Band 
and our Band members.
    The checkerboard landownership significantly limits both the Band's 
and the County's ability to make effective use of our lands. Several 
years ago, the Band and the County began to look for ways in which to 
work together to improve this. We determined that we could do this 
through a land exchange, and the Band and the County subsequently 
entered into an agreement to implement a land exchange.
    The Band and the County have worked jointly on this land exchange 
and it will greatly benefit both the Band and the County. The land 
exchange involves 1,451 acres of land located outside the Fond du Lac 
Reservation which are owned in fee simple by the Band. These lands 
would be exchanged for tax-forfeited lands of equivalent value 
(approximately 3,200 acres) that are administered by Carlton County 
which are located within the Fond du Lac Reservation.
    By this land exchange, both the Band and the County can consolidate 
scattered tracts of land into areas that can be more effectively 
managed and productively used. The land that would be transferred by 
the County to the Band lies within the Fond du Lac Reservation. Because 
these lands are intermixed with Indian trust lands, and tend to be of 
poorer quality, there are limits to the County's ability to effectively 
use them. A transfer of this land to the Band, however, will greatly 
benefit the Band by providing land on which the Band can construct 
much-needed housing for Band members as well as areas that can be 
preserved in their natural state to enhance Band member hunting and 
gathering opportunities.
    The land that would be transferred from the Band to the County is 
held by the Band in fee simple, lies outside the Reservation, and is 
very good timber land. The transfer of these lands to the County will 
greatly enhance the County's forestry resources. Independent third 
party appraisals have been done and the property to be exchanged is of 
equivalent value.
Why Legislation Is Needed
    The proposed land exchange has been processed through and met all 
of the requirements of Minnesota law for such an exchange. Minn. Stat. 
Ch. 94.344. This includes the appraisals, public hearings, 
environmental review, and title review. However, because the federal 
Non-Intercourse Act, 25 U.S.C.  177, prohibits any ``purchase, grant, 
lease, or other conveyance of lands, or of any title or claim thereto, 
from any Indian nation or tribe of Indians'' unless authorized by 
Congress, Minnesota advised the Band and the County that the State 
cannot give final approval to the land exchange without an Act of 
Congress authorizing the Band to convey its title to this land.
    The Non-Intercourse Act has been in effect since the earliest days 
of the Republic. Under that statute, a sale or other conveyance of 
tribally-owned land is of no effect unless the sale or conveyance is 
made pursuant to either a treaty with the United States or federal 
statute. See County of Oneida v. Oneida Indian Nation, 470 U.S. 226, 
234 (1985); Oneida Indian Nation v. County of Oneida, 414 U.S. 661, 
677-678 (1974). See also Cohen's Handbook of Federal Indian Law,  
15.06 at pp. 1027-1039 (2012 ed.) (Cohen's Handbook). The statute is 
broadly written. In recent years, however, questions have been raised 
about whether the restrictions contained in 25 U.S.C.  177 would apply 
to land purchased by a tribe without federal involvement and held by 
the tribe in fee simple. See Cohen's Handbook,  150.06[4] at pp. 1034-
36. To date, the United States Supreme Court has not resolved that 
question. In its most recent decision where the issue was raised, the 
Court stated that ``[t]his Court has never determined whether the 
Indian Non-Intercourse Act, which was enacted in 1834, applies to land 
that has been rendered alienable by Congress and later reacquired by an 
Indian tribe.'' Cass Cnty., Minn. v. Leech Lake Band of Chippewa 
Indians, 524 U.S. 103, 115 n. 5 (1998). The Court there declined to 
decide that question because the issue had not been presented to or 
considered by the lower federal courts in that case. Id. The Supreme 
Court has not since resolved the issue left open by the Cass County 
case.
    To address this Congress has, in other circumstances, provided the 
necessary federal authorization for Indian tribes to convey interests 
in tribally-owned fee lands. Two such examples involve other tribes in 
Minnesota. In particular, Act of June 20, 2000, Pub. L. 106-217, 114 
Stat. 344, provides that the Lower Sioux Indian Community in Minnesota 
``may lease, sell, convey, warrant, or otherwise transfer all or any 
part of the Community's interest in any real property that is not held 
in trust by the United States for the benefit of the Community'' 
``without further approval, ratification, or authorization by the 
United States.'' Similarly, in the Native American Technical 
Corrections Act of March 2, 2004, Public Law 108-204, section 126, 118 
Stat. 542, Congress did the same for the Shakopee Mdewakanton Sioux 
Community in Minnesota, authorizing the Tribe to convey land it holds 
in fee simple to others without further federal approval.
    S. 920 would do the same for the Fond du Lac Band. S. 920 is 
modeled on the 2000 and 2004 statutes that were enacted for the other 
Minnesota tribes. S. 920 would provide the necessary congressional 
authorization for the Fond du Lac Band to convey its title to the lands 
that the Band holds in fee simple, and thereby enable the Band and the 
County to complete their proposed land exchange.
    While the immediate need for this legislation is the current 
proposed land exchange, the Band and the County have identified other 
lands which are appropriate candidates for similar exchanges in the 
future. Accordingly federal legislation that would generally permit the 
Band to convey land that the Band holds in fee simple--as done in S. 
920--will facilitate similar transactions in the future.
Conclusion
    The Fond du Lac Band and Carlton County have worked together to 
find ways to meet our shared interest in improving our ability to 
effectively use and manage our lands so that we can better meet the 
needs of the people we serve. S. 920 would provide the Band with the 
federal authorization needed to complete the land exchange that would 
serve those objectives.
    I would be pleased to answer any questions that the Committee may 
have and to provide any additional information that the Committee may 
need to review this. We very much appreciate the Committee's 
consideration of this important matter, and ask that the Committee 
favorably report on this bill.
    Miigwech. Thank you.
    Attachment

   Commissioners Office, County of Carlton, Carlton County 
                                                 Courthouse
                                          Carlton, MN, July 3, 2013

Hon. Maria Cantwell,
Chairwoman,
Senate Committee on Indian Affairs,
Washington, DC.
 Re: S.920--the Fond du Lac Band of Lake Superior Chippewa 
                                   Non-Intercourse Act Bill

Dear Chairwoman Cantwell:

    The Carlton County Board of Commissioners supports the Fond duLac 
Band of Lake Superior Chippewa in its quest to seek passage of S. 920, 
a bill introduced on May 9, 2013 by Senator Franken, cosponsored by 
Senator Klobuchar, which would allow the Fond du Lac Band to convey 
Band fee simple property without further federal approval. The bill has 
been referred to the Committee on Indian Affairs. As a representative 
for the Carlton County Board of Commissioners, I would be pleased to 
answer any questions and provide any additional information the 
Committee may need to review on this matter, and the Board asks that 
the Committee favorably report on S. 920.
    The County Board and the Fond du Lac Band entered into a ``Class 
B'' land exchange under Minnesota Statutes Chapter 94.344, which 
governs the process by which Tax Forfeited Lands administered by County 
Government can exchange titles to land with other entities. The process 
requires independent third party appraisals of all subject properties, 
public hearings, environmental review of properties by the State of 
Minnesota Department of Natural Resources and title review by the State 
of Minnesota Attorney General's Office before titles to property can be 
exchanged. All conditions of the Statute have been met except for the 
Attorney General's Opinion that Fond du Lac Band does not have 
authority to exchange titles subject to federal law, 25 U.S.C. 177, the 
Indian Non-Intercourse Act which states that consent must be given by 
Congress before the Fond du Lac Band can alienate fee simple property.
    The purpose of the land exchange is to consolidate County managed 
lands in the headwaters of the Nemadji River system and to return to 
Tribal management tax forfeited lands within the Reservation boundary. 
The tax forfeited lands within the Reservation boundary are scattered 
amongst Tribally managed lands and in exchanging with the Band, would 
consolidated Tribal lands. The lands Fond du Lac will be exchanging to 
Carlton County will consolidate and provide access into existing county 
Memorial forest land and also protect the headwaters of the Nemadji 
River, a State-listed impaired water.
    The U.S. Congress has enacted bills authorizing other Minnesota 
tribes to convey tribally-owned interests in fee simple property. The 
Carlton County Board supports the Fond du Lac Band of Lake Superior 
Chippewa in their pursuit of seeking passage of S. 920 from Congress 
allowing the Band to convey interests in tribally owned property now 
and into the future.
    The Carlton County Board of Commissioners looks forward to working 
with you and the Committee and with Fond duLac Band. If you have 
further questions or need additional information, please feel free to 
contact us at any time. The Board appreciates your consideration of 
this matter and fully supports Fond du Lac Band of Lake Superior 
Chippewa in this endeavor.
        Sincerely,
                                              Robert Olean,
                      Chair, Carlton County Board of Commissioners.

                                           Gregory J Bernu,
                                  Carlton County Land Commissioner.
                                 ______
                                 
  Prepared Statement of Carol Gore, President/CEO, Cook Inlet Housing 
                               Authority
    Thank you, Chairwoman Cantwell, Vice-Chairman Barrasso, and members 
of the Senate Committee on Indian Affairs for this opportunity to 
provide testimony regarding a bill that is of critical importance to 
American Indian and Alaska Native families across the nation--the 
NAHASDA Reauthorization Act of 2013, S. 1352.
    Headquartered in Anchorage, Alaska, Cook Inlet Housing Authority 
(CIHA) has a service area that covers a vast portion of southcentral 
Alaska. These lands are home to tens of thousands of Alaska Native and 
American Indian people, all too many of whom struggle to find safe, 
sanitary, affordable housing. Unfortunately, the severity of the need 
for housing among American Indian and Alaska Native families is 
ubiquitous not just in the communities we serve and the remainder of 
Alaska, but throughout Indian Country.
    The passage of NAHASDA in 1996 represented a major advancement in 
the Indian Housing delivery system. Recipients have since built, 
acquired, and/or rehabilitated more than 110,000 homes. They have 
developed new housing; modernized, weatherized, and rehabilitated old 
homes; provided rental assistance; created home loan programs; 
delivered housing and financial literacy counseling; offered down 
payment assistance; prevented crime; and even revitalized deteriorated 
neighborhoods. Although NAHASDA has empowered tribal recipients to 
effectively address housing needs in their communities, the severity 
and pervasiveness of those needs makes continued federal investment in 
Indian housing a top priority for virtually all Indian tribes.
    NAHASDA is presently authorized through September 30, 2013, making 
the timely passage of S. 1352 a time-sensitive endeavor. We thank 
members of the Committee and their dedicated staff for the work they 
have already done on the reauthorization bill, and we stand ready to 
provide whatever assistance may be needed to ensure that S. 1352 is 
enacted promptly.
S. 1352 Contains Important Amendments
    S. 1352 contains amendments to NAHASDA that will streamline and 
otherwise improve the delivery of Indian housing. The following 
provisions stand out to CIHA as being particularly effective in 
addressing existing barriers and promoting innovation:

  <bullet> Section 101 eliminates the need for tribes to painstakingly 
        account for income that is generated off of income that is in 
        turn generated off of grant amounts. If such a requirement 
        sounds unduly cumbersome and bureaucratic, that is because it 
        is.

  <bullet> Sections 101 and 102 address tribally-determined wage rates 
        and environmental review requirements in a manner that will 
        eliminate administrative redundancies where multiple funding 
        sources are being used in a single project.

  <bullet> Section 204 allows for modest increases in Total Development 
        Cost limits, which present a significant barrier to energy 
        efficient construction and the integration of alternative 
        energy technology into Indian housing projects.

  <bullet> Section 404 enables tribes to be competitive when seeking 
        Low Income Housing Tax Credits.

Mark-Ups Needed to S. 1352
    Cook Inlet Housing urges the Committee to consider three important 
changes during the mark-up of S. 1352. These changes are necessary to 
implement provisions in the manner we believe the Committee intends.
1. Demonstration Program for Homeless or At-Risk Indian Veterans
    Cook Inlet Housing applauds Committee members for taking bold steps 
to address the shameful prevalence of homelessness among American 
Indian and Alaska Native Veterans. We strongly support the concept of a 
rental assistance demonstration program for homeless and at-risk Native 
veterans, as outlined in section 401 of S. 1352. However, one minor but 
critical amendment is needed for the demonstration program to achieve 
its intended results.
    Section 401 of S. 1352 presently provides that the program must 
benefit Indian veterans who ``are residing on or near Indian lands,'' 
making the definition of the term ``Indian lands'' critical. The 
definition used in S. 1352 comes from the Native American Business 
Development, Trade Promotion, and Tourism Act of 2000 (25 U.S.C. 4302). 
That definition, in turn, cross-references multiple other definitions 
in other pieces of legislation. This approach is confusing and 
cumbersome, and it does not reflect the manner in which Indian housing 
is actually delivered under NAHASDA.
    The Indian housing delivery system is structured around the 
delivery of housing within ``Indian Areas,'' as that term is already 
defined in NAHASDA. Further, the meaning of the term ``Indian Areas'' 
has been carefully considered and clarified during Negotiated 
Rulemaking between the tribes and the Federal Government. The term has 
been thoughtfully defined to reflect the realities of the Indian 
Housing delivery system.

        Proposed Revision: We urge the Committee to replace the term 
        ``Indian lands'' in section 401 with the term ``Indian areas'' 
        and to define the term ``Indian areas'' as having the meaning 
        given the term in section 4(11) of the Native American Housing 
        Assistance and Self-Determination Act (25 U.S.C. 4103(11)) and 
        its implementing regulations at 24 C.F.R. Part 1000.

2. Environmental Review
    S. 1352 includes language proposed by Indian Country that will 
allow NAHASDA-based environmental reviews to cover other federal 
funding sources, so as to reduce potential redundancy (Section 102 of 
S. 1352). However, rather than include such language as a new section 
105(e) as proposed, the Senate language would replace existing section 
105(d). The existing 105(d) contains provisions that authorize HUD to 
waive environmental review requirements when a waiver will not 
frustrate NEPA or threaten the health or safety of the community, is 
the result of an inadvertent error, and may be corrected through the 
sole action of the recipient. This limited waiver authority is an 
important provision that tribes and TDHEs have relied upon, and which 
has not been controversial. The waiver authority should remain in 
NAHASDA.

        Proposed Revision: CIHA believes that the removal of the 
        limited waiver provision in current section 105(d) of NAHASDA 
        may be unintentional. We suggest that the new environmental 
        review language be inserted as a new 105(e) and not as a 
        replacement for 105(d).

3. Conversion of Rental Unit to Homebuyer Unit
    Multiple recipients have expressed concern about potential 
ambiguity in the changes to section 205, specifically the new 205(d) 
(section 201 of S.1352). CIHA supports this provision but wants to 
ensure that its effect is clear. We believe that any ambiguity can 
likely be resolved with the following minor revisions:

        Proposed Revision: ``(d) PURCHASE.--In the case of rental 
        housing that is made available to a current rental tenant for 
        conversion to a homebuyer or lease-purchase unit, the current 
        rental tenant may purchase through a contract to purchase, 
        lease-purchase agreement, or any other sales agreement so long 
        as the current rental tenant was if the unit is made available 
        for occupancy by a family that is a low-income family at the 
        time of initial occupancy.''

Additional Provisions Should Be Included in S. 1352
    S. 1352 does not contain several provisions that were offered by 
the National American Indian Housing Council at the consensus of its 
membership, which includes 271 organizations representing 463 tribes. 
Notable among those provisions are:

  <bullet> Elimination or modification of the 30 percent maximum rental 
        payment requirement. S. 1352 does not contain any language 
        eliminating or modifying the 30 percent rule, which imposes an 
        unsustainable operating cost burden on projects developed under 
        NAHASDA.

  <bullet> Reserve accounts. S. 1352 does not include the language 
        proposed by NAIHC to expand the purposes for which reserve 
        accounts can be used beyond administration and planning.

  <bullet> Insurance requirements. S. 1352 does not include language 
        that would limit insurance requirements to those units actually 
        owned or managed by the tribe/TDHE. Presently, tribes are 
        required to maintain insurance on any units assisted under 
        NAHASDA, even if those units are privately owned and the 
        assistance provided is relatively minor.

    Including the foregoing provisions in S. 1352 will address barriers 
to the delivery of Indian Housing and enable tribes to improve access 
to safe, affordable housing in the communities they serve.
    Again, we extend our sincere appreciation to the Chairwoman, Vice-
Chair, and Members of the Senate Committee on Indian Affairs. S. 1352 
makes a number of critical improvements to the Indian housing delivery 
system, and we fully support the bill subject to the critical mark-ups 
identified above.
                                 ______
                                 
   Prepared Statement of Annette Bryan, Executive Director, Puyallup 
                        Nation Housing Authority
    Good afternoon, Chairwoman Cantwell, Vice-Chairman Barrasso, and 
distinguished members of the Senate Committee on Indian Affairs. My 
name is Annette Bryan, and I am the Executive Director of the Puyallup 
Nation Housing Authority (PNHA). I would like to thank the Chair, the 
Vice-Chair, and other Committee Members for introducing S. 1352, the 
bill to reauthorize the Native American Housing Assistance and Self-
Determination Act (NAHASDA). The housing needs for the Puyallup Tribe, 
and across Indian country, are extreme. The NAHASDA has provided PNHA 
with tools to make notable progress in addressing the housing needs of 
our Tribe, but there is still a significant unmet need that is far too 
large. The NAHASDA has been and will continue to be a critically needed 
tool to enable tribes to meet the overwhelming need for safe, 
affordable, and sanitary housing for their members. Since the current 
version of the statute expires on September 30, 2013, timing is 
important. We appreciate the efforts of the Committee members and their 
staff to introduce the reauthorization bull and we look forward to 
working with you to ensure that it is enacted as soon as possible.
S. 1352 Contains Much Needed Amendments
    S. 1352 contains a number of amendments to the NAHASDA and related 
legislation that will provide important benefits to Indian housing. 
PNHA supports the proposed amendments contained in S. 1352 (subject to 
the needed mark ups described below to fix what appear to be 
inadvertent ambiguities or confusion). In particular, PNHA appreciates 
and supports the following provisions:

  <bullet> Section 101, dealing with program income, which will foster 
        greater flexibility and creativity in use of program income and 
        in the use of income generated by such funds.

  <bullet> Sections 101 and 102, dealing with tribally-determined wage 
        rates and environmental review respectively, which will reduce 
        administrative redundancies where multiple funding sources are 
        being used in a single project.

  <bullet> Section 201, which authorizes a family who initially 
        occupied a rental unit as a low-income family but later gains 
        enough income to exceed the low-income threshold to convert to 
        a homebuyer for that same unit without having to re-qualify as 
        low-income.

  <bullet> Section 204, allowing for increases in the Total Development 
        Cost limits, which are one of the significant barriers to 
        energy efficient design and construction.

  <bullet> Section 404, which will foster greater competitiveness for 
        tribes in seeking Low Income Housing Tax Credits.

Mark-Ups Needed to S. 1352
    We urge the Committee to consider two changes during the mark-up of 
S. 1352. Both of these changes are needed to effectively implement two 
of the amendments in the bill.
Environmental Review
    S. 1352 includes the language proposed by Indian Country to amend 
Section 105 (Environmental Review) to allow for NAHASDA-based 
environmental reviews to cover other funding sources, so as to reduce 
potential redundancy (Section 102 of S. 1352). However, rather than 
include such language as a new section 105(e) as proposed, the Senate 
language would replace the existing 105(d). That section (existing 
105(d)) contains the provisions that authorize HUD under certain 
limited circumstances to waive the environmental review requirements. 
The waiver authority is an important provision that tribes and TDHEs 
have relied upon, and which has not been controversial. The proposed 
amendment in S. 1352, however, would eliminate that waiver authority. 
This change may be inadvertent. The waiver authority needs to remain in 
the NAHASDA. With this, PNHA proposes the following revision.
    Proposed Revision:

         PNHA urges that the new language be inserted as a new 105(e) 
        and not as a replacement for 105(d).

Conversion of Rental Unit to Homebuyer Unit
    We have heard some concern expressed about potential ambiguity in 
the changes to Section 205, specifically the new 205(d) (section 201 of 
S. 1352). PNHA supports this provision, but wants to ensure that its 
objective and effect are clear. We think that any ambiguity can be 
resolved with a couple of minor wording changes, as follows:
    Proposed revision:

         3 ``(d) PURCHASE.--In the case of rental housing that is made 
        available to a current rental tenant for conversion to a 
        homebuyer or lease-purchase unit, the current rental tenant may 
        purchase through a contract to purchase, lease-purchase 
        agreement, or any other sales agreement so long as the current 
        rental tenant was if the unit is made available for occupancy 
        by a family that is a low-income family at the time of initial 
        occupancy.''

Additional Items PNHA Would Like to See in S. 1352
    As necessary as its proposed amendments are, S. 1352 does not 
contain several items that are very important to Indian Country. Among 
them are the following:

  <bullet> 30 percent maximum rental payment requirement. S. 1352 does 
        not contain any language eliminating or modifying the 30 
        percent rule, which imposes costly burdens on Indian Country 
        housing development and maintenance.

  <bullet> Timelines for HUD to act and ``deemed approved'' provisions. 
        S. 1352 does not include timelines for HUD to act with regard 
        to certain waiver or approval requests, and which would provide 
        that such a request is ``deemed approved'' if HUD fails to act 
        within timeline.

  <bullet> Reserve Accounts. S. 1352 does not include the NAIHC-
        proposed language that would expand the purposes for which 
        reserve accounts can be used beyond just administration and 
        planning.

  <bullet> Insurance requirements. S. 1352 does not include the NAIHC-
        proposed language that would limit the tribe/TDHE insurance 
        requirements and maintenance policy requirements to those units 
        owned or managed by the tribe/TDHE (excluding from this 
        requirement homes that are only ``assisted'' with NAHASDA 
        funds).

  <bullet> LOCCS edits. The Senate Bill does not include the NAIHC-
        proposed language that would require that HUD give notice and 
        opportunity for a hearing before imposing a ``LOCCS edit'' on a 
        recipient's funds.

    All of these additional items would enable tribes and TDHEs to 
better address the housing needs in their communities. We ask the 
Committee as it moves forward on S. 1352 to include them in the final 
legislation.
    In closing, we greatly appreciate the effort of the Chair, Vice-
Chair, Committee Members, and their respective staff in developing and 
introducing a NAHASDA reauthorization bill in a timely fashion, and for 
addressing a number of critically important issues. While we think that 
some improvements could be made, we fully support the proposed 
amendments (subject to the requested mark ups).
                                 ______
                                 
Prepared Statement of Hon. Michael Thom, Chairman, Karuk Tribe Housing 
                 Authority; Vice-Chairman, Karuk Tribe
    Greetings Chairwoman Cantwell, Vice-Chairman Barrasso and 
distinguished members of the Senate Committee on Indian Affairs. My 
name is Michael Thom, and I am the Chairman of the Karuk Tribe Housing 
Authority (KTHA), as well as the Vice Chair of the Karuk Tribe. I am 
honored to provide these comments as testimony for today's hearing in 
support of the reauthorization of the Native American Housing 
Assistance and Self-Determination Act of 1996 (NAHSADA) and in support 
of S. 1352, which contains amendments to NAHASDA to make it even 
stronger.
    On behalf of the Karuk Tribe and the KTHA, I would like to thank 
the Chairwoman and the members of the Committee for introducing S. 
1352, and for establishing the reauthorization of the NAHASDA as a 
priority legislative item for the Committee. In particular, we would 
like to thank the Chairwoman for her efforts to provide resources to 
meet the severe needs for housing assistance in Indian country and 
other rural areas. The housing needs for the Karuk Tribe, and across 
Indian country, are extreme. The NAHASDA has provided KTHA with tools 
to make notable progress in meeting the housing needs of our Tribe, but 
there is still a significant unmet need that is far too large. 
Reauthorization of the NAHASDA provides a necessary opportunity to 
strengthen the Act by increasing its flexibility and efficiency, but 
reauthorization is not enough: NAHASDA must also be funded in 
accordance with the dire housing needs in Indian country.
    The Karuk Tribe is made up of several communities, which are 
located along the Klamath River in two extremely rural portions of 
Siskiyou and Humboldt Counties located in northwestern California. The 
Tribe has approximately 3600 enrolled tribal members and the Tribe's 
current reservation is approximately 600 acres, located on 
noncontiguous parcels within the three communities. The Karuk Tribe 
Housing Authority serves one of the most remote and poverty stricken 
areas of California. Many of our members live in remote, rural region 
where economic opportunity and jobs are very limited and unemployment 
is as extraordinarily high as the per capita income is low. This region 
was estimated to be 85 percent timber-dependent, and its economy has 
not recovered from the closures of local mills, a condition borne out 
the fact that, in 2006, 90 percent of the students enrolled in the 
local elementary school qualified for free lunch program. The census 
data for the Tribe's Happy Camp community, which is where the Tribe's 
administrative offices and the KTHA office are located, indicate that 
the median income of $23,095 is less than half the median income for 
the state and the per capita income only $13,614. The census data 
indicate that the unemployment rate for the Tribe is 83 percent, and 
BIA labor force data indicate that unemployment is at 89 percent. Not 
surprisingly, the KTHA waiting list for homes has over 350 families and 
individuals, many of whom have no other viable housing options.
The Karuk Tribe Housing Authority--Innovations and Unmet Needs
    Since the passage of NAHASDA, the KTHA has developed a broad range 
of housing services, using the flexibility in the Act to meet the needs 
of our service population in the most efficient manner possible. We 
have developed several programs to utilize the tools in NAHASDA 
intended to facilitate homeownership. For example, we have established 
a tribal direct loan program using our Indian Housing Block Grant 
(IHBG). With this program we are able to fund four to five low interest 
loans each year for eligible Indian participants seeking to purchase a 
home off reservation. We have also established a down payment 
assistance program to eligible Indian recipients with loans or 
mortgages to improve existing homes or purchase or construct their own 
new off reservation homes. Both of these programs are designed to 
assist low income members, but even with these benefits, only a small 
fraction of the families on our waiting list are financially capable of 
participating in these programs.
    Additionally, the KTHA has implemented rental voucher programs to 
service the unique needs of college students and elders living off 
reservation. With these programs, we are able to provide rental 
assistance to between 28 and 36 students and 26 elders each year. While 
these programs help address real housing needs, they are also targeted 
and do not assist the majority of those families on the waiting list.
    The vast majority of those on our waiting list (approximately 85 
percent) do not have the means to participate in homeownership 
programs, and they are not students or elders. They are families and 
individuals seeking on-reservation low income rental units. However, we 
have only 187 low income housing units located on tribal land, of which 
40 are set aside to serve the needs of low income elders and rents for 
elders are capped at $125/month. Unfortunately, at the current level of 
NAHASDA funds available to the KTHA, we do not have the resources to 
build new low income rental units. The lack of resources is compounded 
by a lack of infrastructure, such as water, sewer, and, in some 
communities, electricity, and our remote location, which increases the 
cost for labor and materials. These environmental circumstances 
increase the cost of new construction significantly. Therefore, our new 
construction is limited to the replacement of one or two homes per year 
for families and individuals living in substandard housing, who are 
living in extreme poverty (i.e., an annual income below 30 percent of 
the poverty level).
Unmet Housing Needs in Indian Country
    The circumstances facing the KTHA are not unusual in Indian 
Country. In 2003, the U.S. Commission on Civil Rights issues the report 
entitled ``A Quiet Crisis in Indian Country, which includes a stark 
assessment of the unmet housing needs in Indian Country. The statistics 
cited in the report illustrate the dire needs of Native Americans 
nationwide. We cite the following of examples that reflect the issues 
we face at KTHA:

  <bullet> Approximately 90,000 Indian families are homeless or under 
        housed.

  <bullet> 30 percent of reservation households are overcrowded, which 
        is six times the national rate.

  <bullet> 18 percent of reservation households are severely over 
        crowded, which leads to a variety of other social ills such as 
        domestic abuse, substance abuse, an increase in school dropout 
        rates.

  <bullet> Approximately 40 percent of on-reservation housing is 
        considered inadequate as compared to six percent nationwide.

  <bullet> A lack community infrastructure (water and sewer systems, 
        electricity, and telephone service).

    The Civil Rights Commission also noted that unmet housing needs in 
Indian Country are compounded by a number of factors such as depressed 
reservation economies, extreme poverty, lack of infrastructure to 
support housing communities, geographic isolation, environmental 
conditions on reservations, poor access to credit, and a lack of 
funding. Additionally, tribes and Indian housing authorities also face 
a myriad of overlapping and often duplicative administrative 
requirements, which require that tribes coordinate federal, local, and 
sometimes state requirements with tribal requirements, which is both 
time and resource intensive.
    In NAHASDA, Congress expressly recognized the acute housing needs 
in Indian Country and in Indian communities, and Congress recognized 
that the provision of affordable houses in safe and health environments 
is an essential element in the special role of the United States in 
helping tribes and their members to improve their housing conditions 
and socio-economic status. However, as the report of the Civil Rights 
Commission details, the purchasing power of the IHBG decreased during 
the years assessed (1998 to 2003). The report also contrasts the loss 
of IHBG purchasing power to the overall HUD budget, which increased 
during this period. The report notes that, when adjusted for inflation, 
the overall HUD discretionary budget increased by 39.6 percent, while 
the funding for HUD's Native American programs decreased by 1.3 
percent. Since the report was issued the funding for IHBG has remained 
flat or decreased at the same time construction costs have spiked, 
further eroding the purchasing power of tribes and Indian housing 
authorities.
    In 2000, HUD estimated that the NAHASDA funding at that time would 
only meet 5 percent of the need for Indian housing and that more than 
230,000 housing units would still be needed. The Civil Rights 
Commission also cites an estimate by the Coalition for Indian Housing 
and Development that $1.1 billion would be needed to adequately fund 
NAHASDA. In testimony provided this year to the Senate Committee on 
Indian Affairs, the Native American Indian Housing Council (NAIHC) 
stated that the funding request for 2013 was only $650 million but that 
$875 million would be needed just to keep up with inflation. At these 
funding levels, even with additional flexibility and efficiencies, 
tribes and Indian housing authorities will not be able to even maintain 
the status quo, never mind addressing the unmet need. The 350 families 
on the KTHA waiting list are a symptom of this systematic underfunding.
S. 1352--NAHASDA Reauthorization Bill
    First, let me emphasize that reauthorization of NAHASDA is a 
priority. As Congress has recognized repeatedly, Indian programs work 
best when Indian tribes have the authority to plan, implement, and 
administer federal programs and are freed from federal micromanagement. 
NAHASDA was enacted in 1996 to begin to implement the longstanding 
federal policy of tribal self-determination in the housing arena, and 
it is critical to continue that process.
    Despite the great progress that NAHASDA represents toward the goal 
of selfdetermination, amendments to NAHASDA are needed to increase 
flexibility and efficiencies in ways that will enable tribes and Indian 
housing authorities to stretch our underfunded block grants. We need 
the flexibility to identify and target our local needs, and we need to 
be free of micromanagement and overlapping and duplicative oversight 
requirements.
    S. 1352 includes many amendments which we support as a means to 
provide greater flexibility and to promote tribal self-governance and 
self-sufficiency. We do not oppose any of the proposed amendments, and 
we highlight several of the amendments we believe will have the 
greatest positive effect. We also offer suggested amendments to a few 
of the current proposals, which we believe will increase their 
effectiveness. Finally, we note that the discussion draft does not 
address certain issues which are very important to tribes and Indian 
housing authorities. While the proposed amendments may appear, at first 
sight, to merely be a laundry list of particulars, when you step back 
and look at the big picture, these amendments are integrated pieces of 
the larger goal inherent in NAHASDA--furtherance of tribal self-
determination in meeting the housing needs of its members. I will 
address several of the proposed amendments to illustrate this point.
Important Concepts Included in S. 1352
  <bullet> Program income: Any income generated from program income (as 
        opposed to being generated by IHBG funds) will be treated as 
        nonprogram income and will have no restrictions. Currently, HUD 
        treats income that is generated by program income as program 
        income, with the attendant restrictions. Establishing greater 
        flexibility in this area will spur innovation and development.

  <bullet> Tribally determined prevailing wage rates: If a tribe has 
        adopted prevailing wage rates applicable to a NAHASDA-funded 
        project, those rates will apply to the entire project, 
        including other federal funding sources. This amendment will 
        greatly reduce redundancy in tracking and enforcing applicable 
        wage rates, and allow for more funding to be used for 
        constructing homes rather than administrative requirements.

  <bullet> Environmental review: If a tribe has carried out an 
        environmental review on a NAHASDA-funded project consistent 
        with the applicable HUD requirements, that review will satisfy 
        the environmental review requirements from other federal 
        funding sources. This amendment will greatly reduce redundancy 
        in environmental reviews, also allowing for more funding to be 
        used for constructing homes rather than administrative 
        requirements.

  <bullet> Binding commitments: Binding commitments would no longer be 
        required for funds utilized on privately owned homeownership 
        units if aggregate cost is less than $10,000 over a five year 
        period. While KTHA supports a larger cut-off (of $40,000), this 
        amendment will also save time and resources.

  <bullet> Conversion of rental unit to homebuyer unit: If a family 
        initially occupied a rental unit as a low-income family, but 
        later gains enough income to exceed the low-income threshold, 
        that family can still convert to a homebuyer for that same unit 
        without having to re-qualify as low-income. This amendment is 
        necessary so that we don't punish those tribal members who 
        succeed in bettering their financial circumstances.

  <bullet> Total Development Costs: Authorizes recipients to exceed 
        total development cost caps by 20 percent (under current HUD 
        regulations, it is 10 percent). This language should allow some 
        additional use of energy efficient building designs and 
        materials that we were prevented from doing so by TDC caps.

  <bullet> Self-Monitoring: The self-monitoring requirement would be 
        changed from annually to every other year, except for 
        subrecipients, who must be monitored by the recipient every 
        year. This amendment will help reduce the administrative burden 
        on our housing programs.

  <bullet> Indian Veterans' Housing Assistance Demonstration Project: 
        HUD would be authorized to take up to 5 percent of the rental 
        assistance amounts appropriated under the 1937 Act to establish 
        an Indian Veteran specific housing assistance voucher program 
        for the benefit of Indian veterans who are homeless or at-risk 
        of homelessness and who are residing on or near Indian lands. 
        The program would be operated by IHBG recipients. This 
        amendment is an important change, and provides much needed 
        support to our vulnerable Indian veterans.

  <bullet> Low Income Housing Tax Credits Preference. Section 42(m)(1) 
        of the Internal Revenue Code would be amended to require states 
        to provide preference to applicants for Low Income Housing Tax 
        Credits who are tribes, TDHEs, or entities whollyowned by 
        tribes/TDHEs, or subrecipients of tribes/TDHEs. There would 
        also be a preference for projects being developed in Indian 
        areas as defined by NAHASDA. This amendment should assist in 
        moving tribal applications forward in states, like California, 
        that do not have a good track record of awarding LITHC to 
        Indian tribes.

  <bullet> Indian Community Development Block Grant Eligibility for 
        TDHEs: TDHEs would be defined as Community-Based Development 
        Organizations eligible to apply directly for ICDBG funding. 
        KTHA supports this attempt to facilitate ICDBG funding to 
        TDHEs.

  <bullet> Cherokee Nation funding: The restriction on the Cherokee 
        Nation receiving IHBG funds, which was tied to resolution of 
        the ``Cherokee Freedmen'' issue, would be removed.

  <bullet> Native Hawaiian NAHASDA: The title providing for a Native 
        Hawaiian housing program would be restored.

  <bullet> Matching or Cost Participation: IHBG funds would qualify to 
        be used as matching or cost participation funds for projects 
        where other federal or non-federal funding is conditioned on 
        having matching or cost participation funds included.

Important Self-Determination Proposals Not Included in S. 1352
    There are a number of important self-determination proposals that 
have been proposed by Indian country, by which are not included in S. 
1352. We hope that you will consider these as you markup S. 1352. These 
proposals include:

  <bullet> 30 percent maximum rental payment requirement. The Senate 
        Bill does not contain any language eliminating or modifying the 
        30 percent rule.

  <bullet> Exclusions from adjusted income. S. 1352 does not contain 
        authorization for tribes/TDHEs to adopt exclusions from 
        adjusted income (which is the basis for determining income 
        eligibility) through policy rather than through Indian Housing 
        Plans, which require HUD approval.

  <bullet> Timelines for HUD to act and ``deemed approved'' provisions. 
        The NAIHC bill included timelines for HUD to act with regard to 
        certain waiver or approval requests, and provided that request 
        is ``deemed approved'' if HUD fails to act within timeline. 
        None of those provisions were included in S. 1352.

  <bullet> HUD Section 3 requirements. The NAIHC bill proposed 
        excluding applicability of HUD Section 3 requirements (to hire 
        low-income persons in the community for construction and 
        development of projects) where tribe has adopted tribal 
        preference in employment and contracting standards of its own. 
        This provision was not included in S. 1352.

  <bullet> Reserve Accounts. S. 1352 does not include the NAIHC-
        proposed language that would expand the purposes for which 
        reserve accounts can be used beyond just administration and 
        planning.

  <bullet> Adding ``maintaining units'' to definition of affordable 
        housing activities. S. 1352 does not include the NAIHC-proposed 
        language that would add ``maintaining'' dwelling units to the 
        list of affordable housing activities authorized under NAHASDA.

  <bullet> Insurance requirements. S. 1352 does not include the NAIHC-
        proposed language that would limit the tribe/TDHE insurance 
        requirements and maintenance policy requirements to those units 
        owned or managed by the tribe/TDHE (excluding from this 
        requirement homes that are only ``assisted'' with NAHASDA 
        funds).

  <bullet> Binding commitments. S. 1352 does not include the NAIHC-
        proposed language that would require the form of ``binding 
        commitment'' necessary for useful life to be developed by 
        negotiated rulemaking rather than--as in current language--
        complete discretion of HUD.

  <bullet> LOCCS edits. S. 1352 does not include the NAIHC-proposed 
        language that would require that HUD give notice and 
        opportunity for a hearing before imposing a ``LOCCS edit'' on a 
        recipient's funds.

  <bullet> Statute of Limitations on enforcement actions: S. 1352 does 
        not include the NAIHC-proposed language that would impose a 
        three year statute of limitations on HUD enforcement actions.

  <bullet> Recaptured funds. S. 1352 does not include the NAIHC-
        proposed language that would require that any IHBG funds 
        recaptured by HUD in an enforcement action be redistributed to 
        the other tribes/TDHEs, rather than simply going back to the 
        Treasury general fund, or that would prohibit HUD from 
        recapturing funds for any reason if the funds have already been 
        expended on affordable housing activities.

  <bullet> Training and Technical Assistance funding. S. 1352 does not 
        include the NAIHCproposed language that would require that any 
        training or technical assistance funds that are not distributed 
        to a regional entity go to NAIHC.

Conclusion
    NAHASDA represents great progress toward the goal of self-
determination and has provided tribes and TDHEs with important tools 
for meeting the vast housing needs in Indian Country. However, the S. 
1352 amendments to NAHASDA are needed to increase flexibility and 
efficiencies in ways that will enable tribes and TDHEs to do even more 
in this arena. The need is there in Indian Country and we look forward 
to working with the Committee on the best ways to address it.
                                 ______
                                 
  Prepared Statement of Toni Ann Brend, Chairperson, Coquille Indian 
      Housing Authority; Vice Chairperson, Coquille Tribal Council
    Greetings Chairwoman Cantwell, Vice-Chairman Barrasso and 
distinguished members of the Senate Committee on Indian Affairs. My 
name is Toni Ann Brend, and I am the Chairperson of the Coquille Indian 
Housing Authority (CIHA) and the Vice Chairperson of the Coquille 
Tribal Council, the governing body of the Coquille Indian Tribe. I am 
honored to provide these comments as testimony for the Legislative 
Hearing in support of the reauthorization of the Native American 
Housing Assistance and Self-Determination Act of 1996 (NAHASDA) and in 
support of S. 1352, which contains amendments to NAHASDA to make it 
even stronger.
    On behalf of the Coquille Indian Tribe and the Coquille Indian 
Housing Authority, I would like to thank the Chairwoman and the members 
of the Committee for introducing S. 1352, and for establishing the 
reauthorization of NAHASDA as a priority legislative item for the 
Committee. In particular, we would like to thank the Chairwoman for her 
efforts to provide resources to meet the severe needs for housing 
assistance in Indian Country. The housing needs for the Coquille Indian 
Tribe, and across Indian Country, are extreme. NAHASDA has provided 
CIHA with tools to make notable progress in meeting the housing needs 
of our Tribe, but there is still a significant unmet need that is far 
too large. Reauthorization of NAHASDA provides a necessary opportunity 
to strengthen the Act by increasing its flexibility and efficiency, but 
reauthorization is not enough. NAHASDA must also be funded in 
accordance with the dire housing needs in Indian Country.
    The Coquille Indian Tribe is located along the southern coast of 
Oregon, along the Coquille River watershed and lower Coos Bay, the 
lands inhabited by our elders and ancestors since time immemorial. In 
the 19th Century, members of our tribe were forcibly relocated to the 
Siletz Reservation, but a number of them escaped and made their way 
back to our homelands. Our Tribe was one of the many in Western Oregon 
subjected to the misguided policy of ``termination'' in the 1950s. But 
we never lost our identity as a tribe and as a people, and in 1989 were 
finally successful in obtaining restoration of our federal recognition 
from Congress.
    One of the first steps our Tribe took, when it reorganized as a 
federally recognized tribe, was to establish the Coquille Indian 
Housing Authority, so that we could begin providing housing for our 
people. In the mid-1990s, when we obtained lands for our reservation, 
the Coquille Indian Housing Authority immediately embarked on an 
ambitious course of construction and development, turning 62 acres of 
former forest lands into a new homeland for our people through a mixed 
income residential development.
The Coquille Indian Housing Authority--Programs and Unmet Needs
    Since the passage of NAHASDA, CIHA has developed a broad range of 
housing services, using the flexibility in the Act to meet the needs of 
our service population in the most efficient manner possible. We have 
constructed and operate a low-income housing development on our Tribal 
lands. We provide rental vouchers to low-income Tribal members and 
other American Indians and Alaska Natives to find rental housing on the 
private market. We operate a lease-to-own homebuyer program that 
enables Tribal members to become homeowners. We provide homebuyer 
assistance and counseling.
    Despite these programs and the efforts of our staff, we still are 
unable to meet the need for housing for our people. We have long 
waiting lists for each of our programs. We simply do not have enough 
funding to build enough homes to meet the critical need out there.
    In NAHASDA, Congress expressly recognized the acute housing needs 
in Indian Country and in Indian communities, and Congress recognized 
that the provision of affordable houseing in safe and healthy 
environments is an essential element in the special role of the United 
States in helping tribes and their members to improve their housing 
conditions and socio-economic status.
S. 1352--NAHASDA Reauthorization Bill
    First, let me emphasize that reauthorization of NAHASDA is a 
priority. As Congress has recognized repeatedly, Indian programs work 
best when Indian tribes have the authority to plan, implement, and 
administer federal programs and are freed from federal micromanagement. 
NAHASDA was enacted in 1996 to begin to implement the longstanding 
federal policy of tribal self-determination in the housing arena, and 
it is critical to continue that process.
    Despite the great progress that NAHASDA represents toward the goal 
of selfdetermination, amendments to NAHASDA are needed to increase 
flexibility and efficiencies in ways that will enable tribes and Indian 
housing authorities to stretch our underfunded block grants. We need 
the flexibility to identify and target our local needs, and we need to 
be free of micromanagement and overlapping and duplicative oversight 
requirements.
    S. 1352 includes many amendments which we support as a means to 
provide greater flexibility and to promote tribal self-governance and 
self-sufficiency. We do not oppose any of the proposed amendments, and 
we highlight several of the amendments we believe will have the 
greatest positive effect. We also offer suggested amendments to a few 
of the current proposals, which we believe will increase their 
effectiveness. Finally, we note that the discussion draft does not 
address certain issues which are very important to tribes and Indian 
housing authorities. While the proposed amendments may appear, at first 
sight, to merely be a laundry list of particulars, when you step back 
and look at the big picture, these amendments are integrated pieces of 
the larger goal inherent in NAHASDA--furtherance of tribal self-
determination in meeting the housing needs of its members. I will 
address several of the proposed amendments to illustrate this point.
Important Concepts Included in S. 1352
  <bullet> Program income: Any income generated from program income (as 
        opposed to being generated by IHBG funds) will be treated as 
        nonprogram income and will have no restrictions. Currently, HUD 
        treats income that is generated by program income as program 
        income, with the attendant restrictions. Establishing greater 
        flexibility in this area will spur innovation and development.

  <bullet> Tribally determined prevailing wage rates: If a tribe has 
        adopted prevailing wage rates applicable to a NAHASDA-funded 
        project, those rates will apply to the entire project, 
        including other federal funding sources. This amendment will 
        greatly reduce redundancy in tracking and enforcing applicable 
        wage rates, and allow for more funding to be used for 
        constructing homes rather than administrative requirements.

  <bullet> Environmental review: If a tribe has carried out an 
        environmental review on a NAHASDA-funded project consistent 
        with the applicable HUD requirements, that review will satisfy 
        the environmental review requirements from other federal 
        funding sources. This amendment will greatly reduce redundancy 
        in environmental reviews, also allowing for more funding to be 
        used for constructing homes rather than administrative 
        requirements.

  <bullet> Binding commitments: Binding commitments would no longer be 
        required for funds utilized on privately owned homeownership 
        units if aggregate cost is less than $10,000 over a five year 
        period. While KTHA supports a larger cut-off (of $40,000), this 
        amendment will also save time and resources.

  <bullet> Conversion of rental unit to homebuyer unit: If a family 
        initially occupied a rental unit as a low-income family, but 
        later gains enough income to exceed the low-income threshold, 
        that family can still convert to a homebuyer for that same unit 
        without having to re-qualify as low-income. This amendment is 
        necessary so that we don't punish those tribal members who 
        succeed in bettering their financial circumstances.

  <bullet> Total Development Costs: Authorizes recipients to exceed 
        total development cost caps by 20 percent (under current HUD 
        regulations, it is 10 percent). This language should allow some 
        additional use of energy efficient building designs and 
        materials that we were prevented from doing so by TDC caps.

  <bullet> Self-Monitoring: The self-monitoring requirement would be 
        changed from annually to every other year, except for 
        subrecipients, who must be monitored by the recipient every 
        year. This amendment will help reduce the administrative burden 
        on our housing programs.

  <bullet> Indian Veterans' Housing Assistance Demonstration Project: 
        HUD would be authorized to take up to 5 percent of the rental 
        assistance amounts appropriated under the 1937 Act to establish 
        an Indian Veteran specific housing assistance voucher program 
        for the benefit of Indian veterans who are homeless or at-risk 
        of homelessness and who are residing on or near Indian lands. 
        The program would be operated by IHBG recipients. This 
        amendment is an important change, and provides much needed 
        support to our vulnerable Indian veterans.

  <bullet> Low Income Housing Tax Credits Preference. Section 42(m)(1) 
        of the Internal Revenue Code would be amended to require states 
        to provide preference to applicants for Low Income Housing Tax 
        Credits who are tribes, TDHEs, or entities whollyowned by 
        tribes/TDHEs, or subrecipients of tribes/TDHEs. There would 
        also be a preference for projects being developed in Indian 
        areas as defined by NAHASDA. This amendment should assist in 
        moving tribal applications forward in states, like California, 
        that do not have a good track record of awarding LITHC to 
        Indian tribes.

  <bullet> Indian Community Development Block Grant Eligibility for 
        TDHEs: TDHEs would be defined as Community-Based Development 
        Organizations eligible to apply directly for ICDBG funding. 
        KTHA supports this attempt to facilitate ICDBG funding to 
        TDHEs.
Markup Needed
    There are two changes that we would urge the Committee to consider 
during markup of this legislation, both of which are needed to 
effectively implement two of the amendments addressed above.
    First, the bill includes the language that Indian Country proposed 
to amend Section 105 (Environmental Review) to allow for NAHASDA-based 
environmental reviews to cover other funding sources, so as to reduce 
potential redundancy (Section 102 of the bill). However, rather than 
include such language as a new section 105(e) as proposed, the Senate 
language would replace the existing 105(d). That section (existing 
105(d)) contains the environmental review waiver provisions, which 
authorizes HUD under certain circumstances to waive the environmental 
review requirements. The waiver authority is an important provision 
that tribes and TDHEs have relied upon, and which has not been 
controversial--and the proposed amendment would eliminate that waiver 
authority.
    Proposed Revision: CIHA urges that the new language be inserted as 
a new 105(e) and not as a replacement for 105(d).
    Second, we have heard some concern expressed about potential 
ambiguity in the changes to Section 205, specifically the new 205(d) 
(Section 201 of the bill). We think that the ambiguity can be resolved 
with a couple of minor wording changes, as follows:

        Proposed Revision: ``(d) PURCHASE.--In the case of rental 
        housing that is made available to a current rental tenant for 
        conversion to a homebuyer or lease-purchase unit, the current 
        rental tenant may purchase through a contract to purchase, 
        lease-purchase agreement, or any other sales agreement so long 
        as the current rental tenant was if the unit is made available 
        for occupancy by a family that is a low-income family at the 
        time of initial occupancy.''

Important Self-Determination Proposals Not Included in S. 1352
    There are a number of important self-determination proposals that 
have been proposed by Indian Country that are not included in S. 1352. 
We hope that you will consider these as you markup S. 1352. These 
proposals include:

  <bullet> 30 percent maximum rental payment requirement: S. 1352 does 
        not contain any language eliminating or modifying the 30 
        percent rule. When an Indian-specific housing program was 
        created through NAHASDA, certain aspects of the prior 1937 
        Housing Act were retained. One of these was the requirement 
        that tribes may charge no more for rents than 30 percent of the 
        adjusted annual income of households, NAHASDA Section 203(a), 
        25 U.S.C.  4133(a). While this appears to be a common sense 
        measure to ensure that affordable housing remains affordable, 
        it is a concept that has not transferred over well to the 
        NAHASDA framework. First and foremost, under the 1937 Housing 
        Act Public Housing program, there is a specific line item for 
        maintenance and operation of managed premises. There is no such 
        appropriation under NAHASDA. Oftentimes the only funds that are 
        available for maintenance and operations come from the rents 
        that tribes and TDHEs are able to charge. But there are many 
        low-income clients whose annual adjusted income (a term defined 
        by the statute) is at or near zero, and therefore the rents 
        that the tribe or TDHE can charge is zero or de minimis. Under 
        the 30 percent rule, tribes and TDHEs are prohibited from 
        charging a base administrative fee if that fee is in excess of 
        30 percent of income. Further, the work required to certify and 
        recertify the annual adjusted income of each household in order 
        to make appropriate adjustments to rent is substantial and 
        burdensome. Moreover, the 30 percent rule applies where the 
        tribe or TDHE is providing a rental or homebuyer subsidy to a 
        tribal member in a unit owned or managed by another landlord. 
        Thus, where a tribe or TDHE decides to undertake a rental 
        assistance voucher program--like CIHA--we are required to 
        provide a subsidy in a sufficient amount to ensure that the 
        tenant or homebuyer is paying no more than 30 percent of their 
        income. We are prohibited from providing a flat voucher amount 
        (such as a payment of $200 per month per household in the 
        program), which would enable us to spread our resources among 
        more households. CIHA supports an amendment to NAHASDA that 
        would eliminate or modify the application of the 30 percent 
        maximum rent rule to Indian housing programs.

  <bullet> Timelines for HUD to act and ``deemed approved'' provisions: 
        The NAIHC bill included timelines for HUD to act with regard to 
        certain waiver or approval requests, and provided that a 
        request is ``deemed approved'' if HUD fails to act within 
        timeline. None of those provisions were included in S. 1352.

  <bullet> Reserve Accounts: S. 1352 does not include the NAIHC-
        proposed language that would expand the purposes for which 
        reserve accounts can be used beyond just administration and 
        planning.

  <bullet> Adding ``maintaining units'' to definition of affordable 
        housing activities: S. 1352 does not include the NAIHC-proposed 
        language that would add ``maintaining'' dwelling units to the 
        list of affordable housing activities authorized under NAHASDA.

  <bullet> Insurance requirements: S. 1352 does not include the NAIHC-
        proposed language that would limit the tribe's/TDHE's insurance 
        requirements and maintenance policy requirements to those units 
        owned or managed by the tribe/TDHE (excluding from this 
        requirement homes that are only ``assisted'' with NAHASDA 
        funds).

  <bullet> LOCCS edits: S. 1352 does not include the NAIHC-proposed 
        language that would require that HUD give notice and 
        opportunity for a hearing before imposing a ``LOCCS edit'' on a 
        recipient's funds.

  <bullet> Statute of Limitations on enforcement actions: S. 1352 does 
        not include the NAIHCproposed language that would impose a 
        three-year statute of limitations on HUD enforcement actions.

Conclusion
    NAHASDA represents great progress toward the goal of self-
determination and has provided tribes and TDHEs with important tools 
for meeting the vast housing needs in Indian Country. However, the 
proposed S. 1352 amendments to NAHASDA are needed to increase 
flexibility and efficiencies in ways that will enable tribes and TDHEs 
to do even more in this arena. The need is there in Indian Country and 
we look forward to working with the Committee on the best ways to 
address it.
                                 ______
                                 
 Prepared Statement of Hon. Joe Durglo, Chairman, Confederated Salish 
           and Kootenai Tribes of the Flathead Indian Nation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Prepared Statement of Cheryl A. Causley, Executive Director, Bay Mills 
    Indian Housing Authority; Chairwoman, National American Indian 
                        Housing Council (NAIHC)
    Good afternoon Chairwoman Cantwell, Vice Chairman Barrasso, and 
distinguished members of the Committee on Indian Affairs. Thank you for 
the opportunity to provide a written statement on S. 1352, a bill to 
reauthorize the Native American Housing Assistance and Self-
Determination Act (NAHASDA) and for other purposes.
    My name is Cheryl Causley and I am the Executive Director of the 
Bay Mills Indian Housing Authority. I am an enrolled member of the Bay 
Mills Indian Community located in Brimley, Michigan, and am providing 
this statement as Chairwoman of the National American Indian Housing 
Council (NAIHC).
Background on the National American Indian Housing Council
    The NAIHC was founded in 1974 and for four decades has provided 
invaluable training and technical assistance to all tribes and tribal 
housing entities; provided information to Congress regarding the issues 
and challenges that tribes face in the many issues of housing, 
infrastructure, and community and economic development arenas; and 
worked with key federal agencies to address these important issues.
    The membership of NAIHC is expansive, comprised of 274 members 
representing 473 \1\ tribes and tribal housing organizations. NAIHC's 
member tribes span the entire country from Florida to Alaska, from New 
Mexico to Maine and reside in each state represented by the Members of 
this Committee. Our members are deeply appreciative of the consistent 
leadership this Committee provides in Congress related to issues 
important to tribal communities.
---------------------------------------------------------------------------
    \1\ There are 566 federally recognized Indian tribes and Alaska 
Native villages in the United States, all of which are eligible for 
membership in NAIHC. Other NAIHC members include state-recognized 
tribes eligible for housing assistance under the 1937 Housing Act and 
that were subsequently grandfathered in the Native American Housing 
Assistance and Self-Determination Act of 1996, and the Department of 
Hawaiian Home Lands, the state agency that administers the Native 
Hawaiian Housing Block Grant program.
---------------------------------------------------------------------------
    NAIHC's primary mission is to support tribal housing entities in 
their efforts to provide safe, decent, affordable, and culturally 
appropriate housing for Native people.
Native American Housing Assistance and Self-Determination Act
    Passage of NAHASDA in 1996 signaled a shift in the relationship 
between federal and tribal governments with respect to housing 
programs. NAHASDA is based on tribal decisionmaking at the local level 
and has resulted in improved housing conditions throughout Indian 
Country.
    In enacting NAHASDA, Congress moved to address the housing crisis 
in Indian Country by consolidating federal housing programs into a 
single block grant made directly to Indian tribes or their tribally-
designated housing entities (TDHEs).
    For over 17 years, NAHASDA has been the cornerstone for providing 
housing assistance to low-income families on Indian reservations, in 
Alaska Native villages, and on Hawaiian Home Lands.
Essential Input from Practitioners
    Throughout 2012, NAIHC held a series of outreach meetings to gather 
input from tribal leaders, Indian housing professionals and advocates 
for consideration during reauthorization deliberations on Capitol Hill. 
NAIHC's input relied heavily on individuals working in tribal housing 
management who possess the extensive experience necessary to assess 
NAHASDA's original intent and to take the lead in discussions on best 
practices and barriers (within NAHASDA) that Indian housing directors 
face on a regular basis.
    The outreach facilitated in-depth, ongoing discussions to assess 
the effectiveness of the Act, its individual components, and its rules 
and regulations in meeting its intended purpose(s). The objective of 
this extensive outreach process was to have a reauthorized Act that 
more effectively accomplishes its objectives.
    Input from this year-long process was catalogued and developed into 
a consensus reauthorization bill. NAIHC maintained regular 
communication with Members of Congress and staff throughout this 
process and shared copies of provisions and reasoning for those 
provisions in draft legislative language. In summary, NAIHC's proposed 
NAHASDA reauthorization is designed to strengthen tribal self-
determination and remove agency-created barriers by establishing 
timelines for departmental approvals and streamlining administrative 
processes. NAIHC has partnered with the National Congress of American 
Indians on NAHASDA reauthorization efforts in order to ensure tribal 
leadership remain at the forefront of these important legislative 
activities.
S. 1352, To Reauthorize the Native American Housing Assistance and 
        Self-Determination Act
    NAIHC appreciates efforts to enhance and further tribal self-
determination in the NAHASDA reauthorization bill. Several proposed 
amendments aimed at removing barriers and streamlining processes to 
implement Indian housing development are not included in S. 1352, and 
we respectfully request they be reconsidered

  <bullet> Language to enforce departmental deadlines currently set 
        forth in NAHSADA;

  <bullet> Language authorizing Indian tribes, in their discretion, to 
        use funds appropriated to the Indian Health Service to 
        construct sanitation facilities for housing assisted with HUD 
        funds.

  <bullet> Language clarifying that the Act's minimum rent requirement 
        do not apply if a block grant recipient has a written policy 
        governing rents or homebuyer payments charged for housing 
        units, and such policy does not include a provision governing 
        maximum rents or homebuyer payments.

  <bullet> Language directing the Office of Native American Programs to 
        develop and implement a policy that provides for Indian 
        preference in opportunities for employment, vacancies, training 
        and promotion.

    Indian Country needs NAHASDA reauthorized because it directly 
affects the health of communities and well-being of Indian people 
nationwide. NAIHC stands ready to assist in the development and 
promotion of a more effective statute that will ultimately provide 
safe, quality, and affordable housing for tribal communities in the 
least restrictive manner. We encourage swift passage of NAHASDA 
reauthorization to provide our federal partners with the necessary 
tools to uphold its trust responsibility to Indian country.
Conclusion
    In closing, I want to thank you Chairwoman Cantwell, Vice Chairman 
Barrasso, and all Members of the Committee for holding this hearing to 
reauthorize and extend NAHASDA to address ongoing housing challenges 
throughout Indian Country.
    We appreciate your strong support for the NAHASDA programs and your 
ongoing commitment to Indian tribes and their members.
                                 ______
                                 
Prepared Statement of Jobie M. K. Masagatani, Chairman, Hawaiian Homes 
                               Commission
    Aloha Chairwoman Cantwell, Vice-Chairman Barrasso, and 
distinguished members of the Senate Committee on Indian Affairs. Thank 
you for this opportunity to provide this testimony on behalf of the 
Hawaiian Homes Commission, the Department of Hawaiian Home Lands, and 
the 37,000 native Hawaiian beneficiaries of our land trust. We strongly 
support the reauthorization of NAHASDA as it has provided tools and 
resources to native communities across the country to help meet the 
needs for safe and affordable housing.
    Since the Department of Hawaiian Home Lands began receiving 
resources through Title VIII of NAHASDA in 2001, we have used this 
funding to support home construction activities (including homes, 
roads, sewers, street lighting, and utilities); direct loans to income-
eligible families; individual development accounts; down payment 
assistance; subsidies for home rehabilitation; and administrative cost 
support to non-profits who provide self-help home construction; home 
repair training; financial counseling; and home energy efficiency 
training services. Over 1,400 low-income families have benefited from 
this program and, in many cases, homeownership would not have been 
possible without NAHASDA support.
    In consideration of the $630,000 median price of a single-family 
house on the island of Oahu, we are currently launching several new 
programs using NAHASDA funds to help families who simply cannot afford 
housing. One program couples the purchase packaged home kits with 
construction financing to provide families the opportunity to own a 
home for less than $200,000. Another program under development is a 
rental (with option to purchase) that will leverage NAHASDA funds with 
low-income housing tax credits and other State resources.
    Our program was established be the Hawaiian Homes Commission Act by 
the U.S. Congress in 1921. This Act set aside 200,000-plus acres of 
land in the then Federal territory to return the native people of 
Hawaii to their lands. The Department of Hawaiian Home Lands has 
administered this trust since statehood in 1959. On December 27, 2000, 
the Omnibus Indian Advancement Act (P.L. 106-569) amended NAHASDA by 
adding a new title, ``Housing Assistance for Native Hawaiians.'' Title 
VIII authorized the Native Hawaiian Housing Block Grant program, which 
is parallel to the Indian Housing Block Grant program, and serves 
families eligible to reside on the Hawaiian Home Lands. Native 
Hawaiians share many of the same attributes as our American Indian and 
Alaska Native counterparts: our housing needs are significant and our 
trust lands require significant infrastructure to realize new housing 
developments.
    In closing, we recognize how NAHASDA has expanded the collective 
capacity of tribes and native communities to address housing and 
infrastructure needs. Although we continue to leverage Housing Block 
Grant dollars with State and other Federal funding, housing needs for 
native Hawaiian families remain unmet. For this reason, we support the 
reauthorization of NAHASDA and we appreciate your continued support of 
housing and native communities. Mahalo nui loa.

                                  <all>

</pre></body></html>
